<3

;
«
-T

APPENDIX

*

*4

27

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

FEB 17 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PATRICIA A. McCOLM,

No.

Plaintiff-Appellant,
v.

STATE OF CALIFORNIA; et al.,

20-16817

D.C. No.
1:14~cv-00580-LJO-JDP
Eastern District of California,
Fresno
ORDER

Defendants-Appellees.
Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges.
This court has reviewed the notice of appeal filed September 17, 2020 in the
above-referenced district court docket pursuant to the pre-filing review order
entered in docket No. 01-80189. Because the appeal is so insubstantial as to not
warrant further review, it shall not be permitted to proceed. See In re Thomas, 508
F.3d 1225 (9th Cir. 2007). Appeal No. 20-16817 is therefore dismissed.
All pending motions are denied as moot.
This order, served on the district court for the Eastern District of California,
shall constitute the mandate of this court.
No motions for reconsideration, rehearing, clarification, stay of the mandate,
or any other submissions shall be filed or entertained.
DISMISSED.
APPENDIX A
DA/Pro Se

received
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

OCT 0 1 2020
ILED
UNITED STATES COURT OF APPEALSDOCKETED.
FOR THE NINTH CIRCUIT
r
Form 24. Motion for Appointment of Counsel

DATE

INITIAL

</frrM «/fhrm24instructions. pdf
Instructions for this form: http://www. ca9. uscourts.gov

9th *Cir. Case Number(s)
Case Name

;3Q — t

-----

MCCOLM v STATE OF CALIFORNIA, ETAL.___

Lower Court or Agency Case Number

1; 14-cv-005 80-LJO-JDP

My name is |pATRICIA A. MCCOLM_____________ .----- -

1.

asking the court to appoint an attorney to help me with this case.
I am
!vly fee status is as follows (select one).
district court or this court granted my motion to proceed in forma
The
lf/> pauperis.
is but the court has not yet
^ I filed a motion to proceed in forma pauperis
•j ruled on the motion.
roceed in forma pauperis.
This motion is accompanied by a motion to p
However, I cannot afford an attorney
I paid the filing fees for this case
.j for the following reasons:

2.
3.

4.

ONo
($Yes
.'.s this 3 Cml ^^additional page(s) describing the issues on appeal.
;;f yes, attach an

My current mailing address
jp£>. BOX 113
City

State CA

[Lewiston

Prisoner Inmate or

f/X

Signature
y
Form 24

.Number
y

Zip Code 96052

(if applicable)^
Date

?

Feedbadfor questions

□SalEESO

about this form? Email usatMm^^^E-------

New 12/01/2018
APPENDIX B
t

Case No. 20-16817: ATTACHMENT TO FORM 24. Motion for Appointment of Counsel

In support of Motion for Appointment of Counsel re permission and appeal, it is hereby
respectfully requested that this Court take Judicial Notice of:

1) the Notice of Appeal in this action with attachments re facts/issues on appeal
showing discriminatory prejudice from acute injury/illness and limitations of permanent
disability constituting extraordinary circumstances/inability to perform as expected, requiring
appointment of counsel and “disregard” of merit re causes of action and good cause for appeal;
that in contravention of Magistrate Judge contention, the Second Amended Complaint states a
cause of action and should not have been dismissed with prejudice under 28 U.S.C. 1915; but
given leave to amend with appointment of counsel to ensure that medically limited persons with
disability are not denied due process and access to the Court by reason thereof; as would appear
to have taken place in this action;

21 A. all medical verifications/requests for accommodation documents filed under
seal in the U.S. District Court. Eastern District in instant case l:14-CV-00580: in particular, the
August 23,2018 statement of M.S. specialist, Dr. Apperson, M.D., PhD re progressive cognitive
decline necessitating appointment of counsel (See below for subsequent diagnosis of earlier
injuries requiring urgent need for back surgery to abate significant pain and potential for
paralysis.) and B. all requests for appointment of counsel.

1

3) the Magistrate Judge Order (ECF) an

d plaintiffs timely motion under FRCP 59e/60b

dismissal/judgment on the Second Amended Complaint; regarding which, the
(ECF ) from

Magistrate Judge questionably determined that where appointment
or counsel is not warranted that dismissal must follow (ECF 74, ms. 7,
lines 18-19) the adoption of which, is apparent discriminatory error/abuse of discretion, a due
process violation and manifest injustice.

SECOND AMENDED COMPLAINT, showing merit of the causes presented.
4) the

on

application to proceed on appeal and 3) on appeal;

in that medical verification shows that

irements of the Court, to avoid prejudice
assistance is needed to determine and satisfy the requi
and achieve a favorable result.
Additional

diagnosed extra

which affect*^ plaintiffs
support acute

ability *n

w.Wn, .ircurnstance^ms^m^rmjmrm
in this actio" and which
court expectations in

nprwsitv for appointment of cgunsejarev

by the attached EXHIBITS

ith the Notice of Appeal as Exhibits 11 and 12.
1_5 , Exhibits 1 and 2 were filed wi
related to the severely limiting medical
Unanticipated results from medical evaluations
intment of counsel were based,
pon which the prior extensions of time and appo
circumstances, u
ions which require surgery to avoid acute potential for
show previously undiagnosed conditions
ircumstances for appeal and appointment
presenting good cause/extraordinary circu
paralysis',, thus,
2

of counsel in this matter; in particular, because the first of three surgeries is scheduled for
November. There is a heavy emotional impact from the new diagnosis and need for surgery;
among other potential life threatening new diagnoses; e.g. serious sleep oxygen deprivation. To
date, there has been a lot of time expended in trying to obtain timely resolution of insurance
coverage for prescribed medically necessary treatment and durable medical equipment to enable
quality sleep, avoid risk of death and hopefully improve daytime cognitive function; a continuing
effort.
The District Court was on notice of serious injury trauma incidents/medical and other
unanticipated detriment outside control of this appellant over the past several years related to a
fall through rotted board on deck at residence, a tip-over in mobility scooter, sleep deprivation,
heat pump failure, break-in damage/theft, four year efforts to obtain compliance by Medi-Cal
insurer with Administrative Law Judge Order to provide the medically necessary power
wheelchair, Covid risk re compromised immune system and respiratory illness preventing timely
access to medical care and related stress/anxiety aggravation of M.S. symptoms with vision
impairment and broken glasses. Staying alive has become a primary issue compromising
competent accomplishment of any written project in such fashion as to have a fair opportunity
with able-bodied persons to achieve a favorable result. Not having timely access to a law library
has not helped the anxiety from limitations in ability to accomplish effective documents in this
case under the unanticipated extraordinary circumstances. Appointment of counsel was sought to
meet the expectations of the court.
The April 2019 deep laceration left leg injury with continuing numbing pain, swelling
and limitation on mobility with knee/hip pain has now been diagnosed as abnormal (See Exhibit
3

3), in part, as arising from serious back injury damage complicated by degenerative disc disease
with recommendation for urgent surgery (See Exhibit 4 and 5. two locations/two surgeries'! to
avoid potential for paralysis. The left leg swelling with knee and hip pain limiting standing and
use thereof has not subsided and remains under evaluation scheduled in September and October.
In preparation for surgery, multiple additional out-of-town studies have been ordered to include
further studies of the neck to determine cause of numbing/pins & needles inflicting periodic loss
of right arm/hand use; symptoms aggravating pre-existing painful, crippled, swollen, arthritic
hands; thus, severely limiting ability to sit / keyboarding. (See Exhibit 1 and 2 hereto.) The hip
injury has been identified by MRI as a ham string tear, split piriformis muscle fibers, sciatic
to

nerve/piraformis syndrome and osteoarthosis of left hip joint; which makes it painful to ambulate
or sit properly. Back pain/spasm also limits concentration and ability to keyboard with focus.
Pain, stress is a factor limiting recall for persons with M.S.
With advanced mobility limitations and surgery anticipated, obtaining Medi-Cal insurer
compliance with the California State Hearing Division ALJ Order for receipt of the power chair
became an urgent priority; supported by the State Hearing Division Presiding Judge Miller. Near
daily effort has been and is required to work with the new vendor to obtain the proper durable
medical equipment and ramp installation. These efforts continue and are scheduled throughout
the next few weeks to deal with unanticipated complications with safety re programming and
other equipment errors and need for instruction on use of the highly specialized equipment. Even
the medical transportation driver was stumped when the chair locked and would not move.
The multiple medical related crises stated above, have contributed to the inability to
timely “download” the cognitive function necessary to competently complete matters in this case.
4

Loss of sleep/cognitive function from oxygen deprivation, the stress of surgery or be paralyzed,
the threat/limitations of Covid and the overwhelming harm reflected in the statement of facts on
appeal, are worthy of such time as necessary to allow for processing of this appeal/appointment
of counsel that will meet the needs of both this appellant and the court in telling wrongful
defendants that all citizens have equal rights unobstructed by “stigma” under the Constitution of
the United States.
In consideration of the debilitating effects of acute medical related matters stated above;
in concert with other permanent disability limitations, appointment of counsel is respectfully
requested to avoid potential for inadvertent errors and omissions from the unanticipated time
invasive medical detriment.
This Court is respectfully requested to ensure, that misunderstood effects of illness/injury,
treatment and progressive disability from disease (M.S. which has no cure); do not become a
discriminatory measure for a District Court to deny a plaintiff with disability the constitutional
right to due process and access to the court in this Countiy. If “stigma,” limitations of
disability and requests to afford appropriate time and other accommodation, cause
problems for the Court precipitating DISMISSAL WITH PREJUDICE; then appointment
of counsel appears to be constitutionally required, to ensure fair and impartial access to the
Court regarding this important question.
Your kind consideration is appreciated.

5

Health “^2^'”“"“ero
SAN FRANCISCO CA 94115-3010
Phone: 415-353-7900 | Fax: 415-353-2583
Clfnfeal Programs:
General Mediclne/Prlmary Care
Weight Management
Behavioral Health

August 31,2020
Patient:
Patricia McColm
Date of Birth: 6/5/1946
Date of Visit: 8/31/2020

To Whom It May Concern:

spinal disorder which may require impend™ sureerT™ "h
and newly di3gnosed
prepare court documentation in a timelvtshlon pi
hafjnterfered "*h her ability to
extension to help deal with these new and unresolved meTcaMssuer*"18
Sincerely,
Meghana Dipt! Gadgll, MD
Electronically signed by Meghana Diptl Gadgll, MD on 8/31/2020,10:19 AM
CC:

Patricia McColm, 8/31/2020 10:19 AM
Page 1 of 1

IXWSSIT /

reqUeS“d

I i

SACRAMENTO CA 95816-5266°°

PATIENT; Patricia McColm
DOB: 6/5/1846
DATE:

8/20/2020

To Whom It May Concern:

multiple sclero^s!S Tam wrlHn°gf this teTte?toVuprort

°nJ,18/2°20 for follow-up for

lawyer to represent her in a civil lawsuit sh« hff J!ler fet,tlon for a court appointed
execute function as a result of mul ipfe scterosi K
hW mem°^nd

Sincerely,

sStoisr’ "■ phd
eurology

"J * «wicia (,

SiSCohn,
__£atrfc/a

Encounte

!iw^Wa

• Date; 0'7/is/2()2,

frocec/,Ures
... ,.Adcfendum

av/s

pui|N

^Patricia McColm
GenderDate of Birth:

Wslf Date;

miH?**

ow

^ma/e
6/5/l946

SB""”--

----- ^SW^Sa*

*s absent jn tt53?r extr&mlties ev

^•'■'saaiaGivogj,
1. formal

££U*Q!£G$:

symnfe!r,'a *'' in atl

reCuc(ion ofcoj
f,Pound

s/den°crm51

ed

ogy

■yii

r,nted by ffoflh

*•: «

C^rafo" (^i„.

1 ci%m$$
UC Davis s°pine Center
Surgeon: ■~V^r-...

Suraery Scheduling

>( . -

^r^cedure’

•,

v

•

Informati

°n and Patie"t Checklist

.
\

'w.*

:..,i c?

*te.in Medical Cl

;'rov;0er (POP) t0
'' ' -'as not been
v specialists fc-

^JX

s-sliiggssg;
©trance' pjea..a

(-J Cardiology
Oxcene^' ^ °n00,°^ ° Pu'monoteov Hp,..........
eumatoiogy Doth
Meat, or KhnZT‘nt!nentS are mack ,
.‘■e^,,>eOTe„te

rfea ^

and ask
^'Mother care

O FVe.
ana .c,(lioperative Sni

?»
4KSS5*
0,“u's

c

lJ

Pre

er:

n*

-operative f ak„,

’

^iabetss;,Hgb Aic will
for m.-r
,agernenf

ss'35£?^!^^er
ine

^«■»*«

„,.

So'“n'UA ^pSL'HS^f '&Slzr+
-

te»»««eyourPCfVmc,

.‘■J Osteoporosis* r
Fusion patients
optim'i2ation
::'Com^ndedsu surni^ ,
■ "*

need a DEXA
scan and Forteo the
raPV prior ft; ■■'surgery for
dSify **» of 1Q00 - >nn
^ a> StouA/A® discussed
"J3'-•■ Aficotine; You wm nood
pnev :;o Sl,fgerY and ;;e '^g*™** a# nicotine products
S^e^^«Wcfere
V:l/'■

<r.«

-'•' su/SP;fc~

'M,n9- A Ufine ni00t'ine screeTfer^ ** at ,eas* * weeks
’*"***•

**®lon*ffy, p/ease b

^::sxa”’
y°Ur

aware UCDMC

^ *£ '*^28^^

vueaaoo,? p,

aPpen

the spi„« c
‘nan«

Case Manager

/*>

enter at <,la.?34^4e3

ollem yy,

fo NP

K'mber/ee Sierra
Pracrc :e Manager

£

Exam Dale:7/15/2020 i*3;07-5i■■ --

$

i

;1

f s. •

»■

't
<n - £ r
r*

|r
«r-

J,

fllPJ

6

.,Jk
f

r r.

i

0

P.

*•

^0 ay*.
-"t**-* * r,
Cfct
_ f

'■S8*’

c

‘Cr O
1

*0

*s

cj-

?'

{

•

.*
..cf

-/ft. ■.

‘ •

■■ *

#r - **v
■

0*3.

fl*'

j^ r

oO*«

-

■V

-•-

5 ->'#•■■
■; *a»«t
*,

*■

Lr

v. • ''*s^aiv
•>ji-

r

**
...

•&.■--**

Hi, *

c

* *

r

•V

'A ■

'I

ft
0

SsS.

f\
Page 1/1^'

>■ "S -.

.:

1U

UC Davis Medical Center

j

midtown neurology

3160 Folsom Blvd, Suite 2100
Sacramento CA 95816-7759
August 23, 2018
Patricia McColm
DOB: 6/5/1946
To Whom It May Concern,

&S%325 “£,,h-*S£

in

disorganized thinking, memory problems lack nfV W'*h *he time constra»nts due to
Cl. it

Sincerely,

i
l

'UiCU

41_

Michelle L Apperson, MD, PhD
(916T7S34C'3588CliniCal Pr°f6SS°r °f

I

Case l:14-cv-00580-LJO-JDP Document 82 Filed 09/11/19 Page 1 of 1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

I

JUDGMENT IN A CIVIL CASE
PATRICIA A. MCCOLM,
CASE NO: 1:14-CV-00580-LJO-JDP
V.
STATE OF CALIFORNIA, ET AL.,

XX — Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT S ORDER FILED ON 9/11/19

Marianne Matherly
Clerk of Court
ENTERED: September 11,2019

hv: /s/ R frnnraW.

Deputy Clerk

APPENDIX C

Case l:14-cv-00580-LJO-JDP

Document81 Filed 09/11/19 Page lot 2

1
2
3
4
5
6
UNITED STATES DISTRICT COURT

7

EASTERN DISTRICT OF CALIFORNIA

8
9
10 |

Case No. l:14-cv-00580-LJO-JDP

PATRICIA A. McCOLM,

ORDER ADOPTING FINDINGS AND
RECOMMENDATIONS DISMISSING CASE

Plaintiff,

11
v.

12
13 |

(ECFNo.75)

STATE OF CALIFORNIA, ei al,
Defendants.

14
15
16

is a former prisoner proceeding in this civil
Plaintiff Patricia A. McColm (“plaintiff’)
17
IB | rights action under 42 U.S.C. § 1983, the Americans with Disabilities Act (“ADA ), and § 504 of
matter was referred to a United States magistrate judge
19 1 the Rehabilitation Act (“RA”). The
20
21
22

pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule 302.
. Peterson entered findings and
On June 12,2019, Magistrate Judge Jeremy D.
case be dismissed with prejudice for repeated
recommendations, recommending that plaintiffs

23
24
25

1
Ptaint*., di- •» opr— »

» *”

H l

t don

”d

August 19,2019. (ECF No. 80.)
and Local Rule 304, this
In accordance with the provisions of 28 U.S.C. § 636(b)(1)
ins carefully reviewed the entire file, the
26
Court has oond.o.ad a d. no,.
of this «*■
rted by the record and proper analysis.
27
dations
to
be
suppo
28 1 Court finds the findings and recommen
1
appendix d

Case l:14-cv-00580-LJO-JDP Document 81 Filed 09/11/19 Page 2 of 2

1

Plaintiffs objections, which contain many of the same deficiencies contained in her original

2

pleadings, do not change this result. A district court may dismiss a complaint for its length and

3

lack of clarity under Rule 8. See, e.g., Cafasso, U.S. ex rel v. Gen. Dynamics C4 Sys., Inc .,637

4

F.3d 1047, 1058-59 (9th Cir. 2011) (collecting authorities). Here, plaintiffs complaint should be

5

dismissed.

6

Accordingly, IT IS ORDERED that:

7

1. The findings and recommendations issued by the magistrate judge on June 12,2019,

8
9

(ECF No. 75), are ADOPTED IN FULL; and
2. The case is dismissed with prejudice.
N

10
11
12
13

IT IS SO ORDERED.
Dated:

September 11. 2019

/s/ Lawrence J, O’Neill
UNITED STATES CHIEF DISTRICT JUDGE

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 1 of 9
1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

FOR THE EASTERN DISTRICT OF CALIFORNIA

8
9

PATRICIA A. MCCOLM,

10

Plaintiff,

11

v.

12

Case No. l:14-cv-00580-LJO-JDP
FINDINGS AND RECOMMENDATIONS
TO DISMISS CASE FOR FAILURE TO
STATE CLAIM, FAILURE TO COMPLY
WITH COURT ORDERS, AND FAILURE
TO PROSECUTE

STATE OF CALIFORNIA, etal.,
Defendants.

13
14

OBJECTIONS, IF ANY, DUE WITHIN 14
DAYS

15

ECF No. 63

16
17
18

I.

Introduction
Plaintiff Patricia A. McColm is a former prisoner proceeding in this civil rights action

19

under 42 U.S.C. § 1983, the Americans with Disabilities Act (“ADA”), and § 504 of the

20

Rehabilitation Act (“RA”). This case arises from alleged discriminatory and retaliatory

21

conduct by the defendants based on plaintiffs race, age, and disability while confined at

22

Central California Women’s Facility in Chowchilla, California (“Chowchilla”). Plaintiff has

23

since been released from prison and is pursuing this case without the assistance of counsel.

24

Plaintiff has filed a second amended complaint. ECF No. 63. We will recommend

25

that this case be dismissed with prejudice based on plaintiffs repeated failure to cure pleading

26

deficiencies and to comply with court orders.

27
28

APPENDIX E (,1s)

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 2 of 9
1

II.

Background

2

a. Original Complaint

3

Plaintiff filed the complaint initiating this action on April 22, 2014, while she was a

4

state prisoner at Chowchilla. ECF No. 1. The complaint was: (1) 27-pages long, (2) written

5

in narrative form, and (3) brought against 69 named defendants and Does 1-250 in their

6

official and individual capacities. Id.

7

The court screened the original complaint and identified several pleading deficiencies:

8

First, the court stated that the complaint reads in narrative form and that under Federal

9

Rule of Civil Procedure 8, “a plaintiff need only plead sufficient allegations of underlying

10

facts to give fair notice and enable the opposing party to defend itself effectively.” Id. at 4

11

(quoting Merritt v. Countrywide Fin. Corp., 759 F.3d 1023, 1033 (9th Cir. 2014)). The court

12

noted that it was “extremely difficult, if at all possible, to determine from [plaintiffs

13

complaint] which act or acts of each [defendant violated which of [plaintiffs rights”

14

because plaintiff had alleged “a multitude of different acts without clearly specifying which

15

Defendant(s) committed which act.” Id.

16

Second, plaintiff appeared to have named certain defendants solely in their

17

supervisory capacities without alleging that they participated in, directed, or knowingly failed

18

to prevent the deprivation of plaintiffs rights. Id. at 6-7. The court explained that claims

19

against supervisors based upon vicarious liability were not supported in civil rights cases

20

brought under 42 U.S.C. § 1983. Id.

21

Third, plaintiff named Doe defendants 1-250 in the caption of her complaint. The

22

court explained that the use of Doe defendants is disfavored, but plaintiff could be permitted

23

to proceed with the Doe defendants if discovery revealed the identities of the unknown

24

defendants. Id. at 8. It was unclear whether plaintiffs complaint met that standard. Id.

25

Finally, the court concluded that it would not exercise supplemental jurisdiction over

26

plaintiffs state law claims unless the same act alleged in the state claim also gave rise to a

27

cognizable federal claim. Id. at 8-9.

28

The claims against the defendants in their individual capacities were dismissed with
2

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 3 of 9
1

leave to amend, and plaintiff was ordered to file a First Amended Complaint curing the

2

deficiencies by April 3, 2015. Id. at 9-10. Plaintiff received numerous extensions of time to

3

file her First Amended Complaint. ECFNos. 14-41. Over two years elapsed from the time

4

plaintiffs complaint was dismissed until March 13, 2017, when plaintiff filed her First

5

Amended Complaint.

6

b. First Amended Complaint

7

Plaintiffs First Amended Complaint (“FAC”) was: (1) 80-pages long; (2) 387

8

numbered paragraphs in length; and (3) brought against 72 named defendants and Does 1-100

9

in their individual and official capacities. ECF No. 42.

10

The court screened the FAC and dismissed it for failure to state a claim on which

11

relief may be granted. ECF No. 47. The screening order noted that the FAC suffered from

12

the same pleading deficiencies as the original complaint in that it was “so disjointed, littered

13

with irrelevant information, and, quite simply, so broad and confusing as to leave the Court

14

unable to address individually each of its allegations.” Id. at 6. The court concluded that

15

plaintiff failed to cure issues with improper linkage—the FAC referred to “defendants” or

16

“Does” in the collective and rarely ascribed conduct to a particular defendant as required by

17

42 U.S.C. § 1983. Id. at 3, 6 (“[Plaintiff] may not simply provide a list of bad things that

18

happened to her and say that all Defendants or a group of them did or enabled those bad

19

things as she has done in her earlier pleadings.”). Finally, the court again identified pleading

20

issues concerning the Doe defendants. Id. at 7-8. The court noted that plaintiff had not

21

described how each Doe defendant personally participated in a violation of her rights, and

22

also noted that plaintiff “must link each individual Doe, identified as Doe 1, Doe 2, and so on,

23

to a specific constitutional violation.” Id.

24

The court thoroughly analyzed the FAC and recommended dismissal with prejudice of

25

all claims except for the following claims: (1) Americans with Disabilities Act, (2) First

26

Amendment retaliation, (3) Fourteenth Amendment access to courts, (4) Eighth Amendment

27

excessive force, and (5) Eighth Amendment failure to protect. Id. at 18. These five claims

28
3

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 4 of 9
1

were dismissed with leave to amend. i

i

2

Plaintiff was directed to file a Second Amended Complaint curing the deficiencies in

3

the five claims identified by the screening order within 30 days. Id. at 19. The court warned

4

plaintiff that failure to file a Second Amended Complaint comporting with the limits

5

identified in the screening order would result in dismissal of the action with prejudice for

6

failure to comply with a court order, failure to state a claim, and failure to prosecute. Id.

7

Plaintiff was specifically instructed to review the screening order thoroughly and “file an

8

amended complaint only with regard to the five claims analyzed in the screening order.” Id.

9

at 17-18. The court further advised plaintiff to “be brief’ and attempt to file an amended

10

complaint of “twenty pages or less.” Id. at 18.
The court ordered plaintiff to file the Second Amended Complaint by September 15,

11
12

2017. Id. at 19. However, plaintiff again requested and received numerous extensions of

13

time. ECF Nos. 48-62. Plaintiff ultimately filed a Second Amended Complaint on July 2,

14

2018.

15

c. Second Amended Complaint

16

Plaintiffs Second Amended Complaint (“SAC”) tracks the content of the FAC, and

17

significantly adds to it—with 41 additional pages and approximately 100 paragraphs of new

18

allegations. ECF No. 63. Specifically, the SAC (1) is 121 pages long; (2) contains 485

19

numbered paragraphs; and (3) is brought against 72 named defendants and Does 1-100 in

20

their individual and official capacities. Id. Plaintiff attempts to restate the claims that were

21

previously dismissed with prejudice.

22

III.

Discussion

23

a. Failure to Comply with Federal Pleading Standards

24

The SAC should be dismissed primarily for the same reason as the original complaint

25

and the FAC: failure to state a claim for relief under Rule 8 of the Federal Rules of Civil

26

Procedure. Under Rule 8, a complaint must contain “a short and plain statement of the claim

27
28

i

The presiding district judge adopted the findings and recommendations in full. ECF No. 53.
4

i

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 5 of 9
1

showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A complaint need only

2

provide “enough facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp. v.

3

Twombly, 550 U.S. 544, 570 (2007). “Specific facts are not necessary; the statement need

4

only give the defendant fair notice of what the ... claim is and the grounds upon which it

5

rests.” Erickson v. Pardus, 551 U.S. 89, 93 (2007) (quoting Twombly, 550 U.S. at 555

6

(internal quotation marks omitted)). However, where the allegations “do not permit the court

7

to infer more than the mere possibility of misconduct,” the complaint does not state a

8

plausible claim for relief and dismissal is appropriate. Ashcroft v. Iqbal, 556 U.S. 662, 679

9

(2009) (quoting Fed. Rule Civ. Proc. 8(a)(2)).

10

A district court may dismiss a complaint for its length and lack of clarity under Rule 8.

11

See, e.gCafasso, U.S. ex rel. v. Gen. Dynamics C4 Sys., Inc., 637 F.3d 1047, 1058-59 (9th

12

Cir. 2011) (collecting authorities). The law does not specify the proper length or the level of

13

clarity that satisfies Rule 8, but allegations that violate Rule 8 include those that are

14

argumentative, needlessly lengthy, ambiguous, confusing, conclusory, repetitive, irrelevant, or

15

incomprehensible. See id. at 1059.

16

Here, the allegations in the SAC are violative of Rule 8 in several ways. The

17

allegations of the SAC are needlessly lengthy, overly confusing, unnecessarily repetitive, and

18

mostly irrelevant. Due to the perplexing manner in which the SAC is pleaded, the court is

19

again unable to ascribe specific conduct to particular defendants as required by 42 U.S.C.

20

§ 1983. See Lacey v. Maricopa Cty., 693 F.3d 896, 915 (9th Cir. 2012) (explaining that claim

21

brought under 42 U.S.C. § 1983 has a causation requirement with liability extending to those

22

state officials who subject, or cause to be subjected, an individual to a deprivation of his

23

federal rights). If the court is unable to decipher the nature of the allegations against the

24

defendants, each of the 72 named defendants and 100 Doe defendants will likely encounter

25

the same difficulty and would, therefore, be unable to defend themselves effectively. The

26

SAC thus fails to give fair notice of the claims against the defendants and should be

27

dismissed. See Merritt, 759 F.3d at 1033 (under federal pleading standards, a plaintiff need

28

only plead sufficient allegations of underlying facts to give fair notice and to enable the
5

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 6 of 9
1
2

opposing party to defend itself effectively).
b. Leave to Amend Should Be Denied

3

Rule 15(a)(2) instructs courts to “freely give leave [to amend] when justice so

4

requires.” Fed. R. Civ. Pro. 15(a)(2); Arizona Students ’ Ass 'n v. Arizona Bd. ofRegents, 824

5

F.3d 858, 871 (9th Cir. 2016). “This policy is to be applied with extreme liberality.” C.F. v.

6

Capistrano UnifiedSch. Dist.t 654 F.3d 975, 985 (9th Cir. 2011). The court may decline to

7

grant leave to amend only where there is a strong showing of: (1) undue delay, (2) bad faith or

8

dilatory motive, (3) repeated failure to cure deficiencies by amendments previously allowed,

9

(4) undue prejudice to the opposing party by virtue of allowance of the amendment, or (5)

10

futility of amendment, etc. See Sonoma Cty. ytss ’n ofRetired Employees v. Sonoma Cty., 708

11

F.3d 1109,1117 (9th Cir. 2013).

12

Leave to amend should be denied in this case because plaintiff has repeatedly and

13

willfully refused to cure pleading deficiencies identified by the court. None of the three

14

complaints filed by plaintiff have come close to satisfying the federal pleading standard.

15

When the court screened the original complaint, it stated that it was “extremely difficult, if at

16

all possible, to determine from [plaintiffs complaint] which act or acts of each [defendant

17

violated which of [p]laintiff s rights” because plaintiff had alleged “a multitude of different

18

acts without clearly specifying which Defendant(s) committed which act.” ECF No. 13 at 4.

19

The court encountered the same problem with the FAC. ECF No. 47 at 6 (concluding that the

20

FAC “so disjointed, littered with irrelevant information, and, quite simply, so broad and

21

confusing as to leave the [c]ourt unable to address individually each of its allegations”). In

22

both prior screening orders, the court provided plaintiff with a detailed overview of federal

23

pleading requirements. The court specifically instructed to “be brief’ and attempt to file an

24

amended complaint of “twenty pages or less.” Id. at 18. Plaintiff ignored these instructions,

25

filing an amended complaint that added 41 pages and approximately 100 paragraphs of new

26

allegations. As discussed above, we are now recommending dismissal of the SAC for the

27

same reason as the previous two iterations: failure to state a claim for relief under Rule 8.

28

Plaintiff has repeatedly refused to comply with the court’s prior screening orders in
6

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 7 of 9

1

several additional ways. The presiding district judge has dismissed all but five claims from

2

this case with prejudice. ECF No. 53. Plaintiff was directed to file a SAC curing the

3

deficiencies identified as to only the five remaining claims. ECF Nos. 53; 47. Plaintiff was

4

warned that failure to file a SAC comporting with the limits identified in the screening order

5

would result in dismissal of the action with prejudice “for failure to comply with a court

6

order, failure to state a claim, and failure to prosecute.” ECF No. 47 at 19. In disregard of

7

these instructions, plaintiff did not limit the SAC to the five remaining claims. Instead, she

8

filed an amended complaint reasserting all the claims previously dismissed with prejudice.

i

i

9

Although the court acknowledges that plaintiff has made some incremental progress

10

ascribing conduct to particular defendants and Does, the SAC remains woefully inadequate in

11

this area despite the court’s repeated instructions. The SAC also attempts to assert claims

12

against supervisors relying on vicarious liability despite our having advised plaintiff that this

13

is not permitted. These repeated failures warrant denial of leave to amend in this case. See

14

Integrated Storage Consulting Servs., Inc. v. Netapp, Inc., No. 5:12-cv-06209, 2016 WL

15

3648716, at *5 (N.D. Cal. July 7, 2016) (denying leave to amend as to a fraud claim in light

16

of the plaintiffs repeated failure to cure deficiencies by amendments previously allowed).

17

c. Dismissal with Prejudice

18

The undersigned also recommends that the court dismiss this case for plaintiffs

19

failure to prosecute and failure to comply with a court order. See Fed. R. Civ. P. 41(b); Hells

20

Canyon Pres. Council v. U.S. Forest Serv., 403 F.3d 683, 689 (9th Cir. 2005). Dismissal for a

21

plaintiffs failure to prosecute or failure to comply with a court order operates as an

22

adjudication on the merits unless the court orders otherwise. See Fed. R. Civ. P. 41(b).

23

Deciding whether to dismiss a case with prejudice for failure to prosecute is a matter

24

committed to the court’s discretion. See Pagtalunan v. Galaza, 291 F.3d 639, 640 (9th Cir.

25

2002). Involuntary dismissal is a harsh penalty, but a district court has duties to resolve

26

disputes expeditiously and to avoid needless burden for the parties. See Fed. R. Civ. P. 1;

27

Pagtalunan, 291 F.3d at 642. “In determining whether to dismiss a claim for failure to

28

prosecute or failure to comply with a court order, the Court must weigh the following factors:
7

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 8 of 9
1

(1) the public’s interest in expeditious resolution of litigation; (2) the court’s need to manage

2

its docket; (3) the risk of prejudice to defendants/respondents; (4) the availability of less

3

drastic alternatives; and (5) the public policy favoring disposition of cases on their merits.”

4

Id. at 642-43.

5

The original complaint was filed in 2014, and this case has not proceeded past the

6

screening stage. Long delays between the court’s screening orders resulted from plaintiffs

7

repeated requests for extensions. See ECF No. 55 (observing that plaintiff has “routinely

8

requested, and generally received, extensions of Court deadlines, delaying the proceedings in

9

this case in excess of two years”). The court is now issuing its third screening order under 28

10

U.S.C. § 1915A, and plaintiff has yet to file a pleading that has come close to satisfying

11

federal pleading standards despite the repeated expenditure of court resources providing

12

instruction. This excessive and unnecessary delay weighs in favor of dismissal. See Yourish

13

v. California Amplifier, 191 F.3d 983, 990 (9th Cir.1999) (“The public’s interest in

14

expeditious resolution of litigation always favors dismissal.”). Although the defendants have

15

not yet been served with process, the potential for substantial prejudice to them exists as the

16

case grows older. See Pagtalunan, 291 F.3d at 643 (“Unnecessary delay inherently increases

17

the risk that witnesses’ memories will fade and evidence will become stale.”).

18

We will recommend that the court dismiss the case with prejudice. Although this is a

19

harsh sanction, plaintiff has been warned that the failure to comply with the court’s prior

20

screening order would result in dismissal of the action with prejudice “for failure to comply

21

with a court order, failure to state a claim, and failure to prosecute.” ECF No. 47 at 19.

22

Despite this warning, plaintiff refused to comply with the prior order. The public’s interest in

23

expeditious resolution of litigation and this court’s need to manage its docket weigh in favor

24

of dismissal with prejudice. The court has considered as a possible alternative a lesser

25

sanction—dismissal without prejudice. However, if the court dismissed without prejudice,

26

the court might again be in the same situation it finds itself in now if plaintiff refiled her case.

27

Significant judicial resources have been expended screening plaintiffs pleadings and

28

instructing her on filing an appropriate amended complaint.
8

Case l:14-cv-00580-LJO-JDP Document 75 Filed 06/12/19 Page 9 of 9
1

IV.

Recommendation

2

We recommend that:

3

1. plaintiffs Second Amended Complaint, ECF No. 63, be dismissed for failure to state

4

a claim for relief;

5

2. leave to amend be denied for plaintiffs repeated failure to cure deficiencies by
amendments previously allowed; and

6
7

3. this case be dismissed with prejudice for failure to comply with court orders and

8

failure to prosecute.

9

The undersigned submits the findings and recommendations to the district judge

10

presiding over this case under 28 U.S.C. § 636(b)(1)(B) and Rule 304 of the Local Rules of

11

Practice for the United States District Court, Eastern District of California. Within 14 days

12

of the service of the findings and recommendations, plaintiff may file written objections to

13

the findings and recommendations with the court and serve a copy on all parties. That

14

document should be captioned “Objections to Magistrate Judge’s Findings and

15

Recommendations.” The district judge will review the findings and recommendations under

16

28 U.S.C. § 636(b)(1)(C). Plaintiffs failure to file objections within the specified time may

17

result in the waiver of rights on appeal. See Wilkerson v. Wheeler, 772 F.3d 834, 839 (9th

18

Cir. 2014).

19
20

T IS SO ORDERED.

21
)ated:

June 12. 2019

22

UNItBD statesmagistrate judge

23
24
25
26
27
28
9

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page lot 37
1
2
3
I

4

PATRICIA A. MCCOLM
P.O. Box 113
Lewiston, CA 96052
(415) 333-8000

FILED
AUG 1 9 2019

Plaintiff, pro se

-■SSSSS:

5
6
7

IN THE UNITED STATES DISTRICT COURT

8

FOR THE EASTERN DISTRICT OF CALIFORNIA

9

ORIGINAL

10
11

PATRICIA A. MCCOLM

NO. 1:14-CV-00580-LJO-JDP

Plaintiff,

12

OBJECTIONS TO MAGISTRATE
JUDGE’S FINDINGS AND
RECOMMENDATIONS, TO ORDER
DENYING RENEWED MOTION TO
APPOINT COUNSEL, TO FAILURE TO
RULE ON OR CONSIDER MEDICAL
EVIDENCE SET FORTH IN REQUEST
FOR JUDICIAL NOTICE AND TO
FAILURE TO CONSIDER AND APPLY
EVIDENCE SET FORTH IN
UNCONSTITUTIONAL CONDITION
REQUIRED DECLARATION OF
PLAINTIFF; REQUEST
TO VACATE REFERRAL FOR
GOOD CAUSE/EXTRAORDINARY
CIRCUMSTANCES.

vs.
13
14
15
16
17
18
19
20
21

REQUEST FOR HEARING
STATE OF CALIFORNIA et al.

22
i

Defendants.

23
24
25
26
27

i

[FRCP 72(b)(l-3); FRCP 73(b)(3)]

28

TO HONORABLE LAWRENCE J. O’NEILL, CHIEF UNITED STATES DISTRICT
JUDGE:
Pursuant to Federal Rules of Civil Procedure 72(b), Local Rules 304, Plaintiff PATRICIA
A. MCCOLM (Plaintiff) does hereby respectfully OBJECT, in its entirety and each contention
therein, to Magistrate Judge’s 1) FINDINGS AND RECOMMENDATIONS TO DISMISS
1
APPENDIX E(2)

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 2 of 37

»

1

CASE FOR FAILURE TO STATE CLAIM, FAILURE TO COMPLY WITH COURT

2 ORDERS AND FAILURE TO PROSECUTE (R&R); issued by Magistrate Judge Jeremy
3

Peterson (Magistrate Judge) on June 12,2019 (DOC 75); to Magistrate Judge’s 2) ORDER

4 DENYING RENEWED MOTION TO APPOINT COUNSEL (AC) issued by Magistrate
5 Judge Jeremy Peterson on June 12,2019 (DOC 74); to Magistrate Judge’s 31 FAILURE TO
6 RULE on, consider or apply medical evidence set forth in REQUEST FOR JUDICIAL
7 NOTICE in support of Renewed Application for Appointment of Counsel and in Support
8

of Objections to Order Vacating Findings and Recommendations et al (DOC 73); to

9 Magistrate Judge’s 4) failure to consider or apply evidence set forth in unconstitutional '
10 condition REQUIRED declaration (DOC 72) (Judicial Notice requested and incorporated
11

herein by reference); and to Magistrate Judge’s 5) failure to fully modify R&R (Doc 75)

12 pursuant to prior OBJECTIONS to Findings and Recommendations (Doc 67); all, as
13

specifically stated below; and further objects to Magistrate Judge’s failure to recuse for

14 preconceived opinion, bias and hostility toward plaintiff individually and/or to class of persons of
15

which plaintiff is a member and moves to vacate referral pursuant to FRCP 73(b)(3) and 28

16 U.S.C. section 636(c)(4); for further good cause/extraordinary circumstances as more fully set
17

forth and implicated below:

18
19
i

i

I. OBJECTIONS RE ORDER DENYING RENEWED MOTION TO APPOINT

20

COUNSEL ERRONEOUSLY INTERTWINED WITH FINDINGS AND

21

RECOMMENDATIONS: THE GRANTING THEREOF. BEING AN

22

UNCONSTITUTIONAL PRECONDITION TO LEAVE TO AMENDMENT AND TO

23

AVOID DISMISSAL:

24

25
26
27

A. ERROR OF LAW RE OMISSION OF ADA TO CHANGE PRIOR
MISTAKEN CLAIM OF DEFICIENCIES AND RECOMMENDATIONS.
The Magistrate Judge issued an Order on 10/11/18 (Doc 71) vacating his Findings and

28 Recommendations to Dismiss entered 8/9/18 after Plaintiff filed substantial OBJECTIONS
2

!

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 3 of 37
1

on 9/13/18 (Doc 67) (incorporated herein by reference and Request for Judicial Notice), showing

2 error of law by prior judge who issued findings and recommendations based solely on 28
3

U.S.C. 1983, HAVING ERRED IN FAILING TO APPLY THE LAW CORRECTLY

4 UNDER THE ADA, which error the Court reversed (Doc. 19). Thus, the reversal of said
5

error should also have been acknowledged as good cause to also vacate conclusions arising

6

from the error which formed essential facts and grounds for assertion of failure to state a

7 claim, failure to cure deficiencies, failure to comply with court orders and failure to
8

prosecute that argued grounds for dismissal. However, assigned Magistrate Judges;

9 including, Magistrate Judge Peterson, failed to acknowledge the error; thus, making the
10 same mistake of law and failure to correct erroneous conclusions arising from same;
11

merely REPEATING in subsequent Findings and Recommendations, without facts or

12

authority, THE SAME OBJECTED TO VAGUE, AMBIGUOUS, ERRONEOUS

13 ARGUMENTS RE DEFICIENCIES AND GROUNDS FOR DISMISSAL UNDER 28
14 i U.S.C. 1983; AGAIN IGNORING APPLICATION OF LAW CORRECTLY TO
15

PLAINTIFF’S SUBSTANTIAL CLAIMS RE VIOLATION OF HER ADA RIGHTS AND

16 OTHER RELATED CONSTITUTIONAL RIGHTS. ADA and Constitutional claims are
17 deemed complex, deserving of learned counsel thereof before the court.
18

Judicial Notice is hereby requested of the Objections to Magistrate Judge’s Findings and

19 II Recommendations (Doc 67) filed 9/13/18 and to Order Vacating Findings and
20 Recommendations (Doc 71); which added the ADA to what was essentially the same objected to
21

findings and recommendations under 28 U.S.C. 1983; but without the references to the

22 dismissals erroneously ordered re State actors “immune from liability” et al upon which the
23

alleged pleading deficiencies and failure to comply with court orders was erroneously based.

24 Thus, in spite of the identified errors, there has essentially been NO CHANGE in the objected to
25 Findings and Recommendations currently before the Court, falsely alleging “repeated failure to
26 cure pleading deficiencies and to comply with court orders,” found to be in error under the ADA.
27 Thus, Plaintiff was NOT required to comply with a void/reversed Order nor cure non28 existent deficiencies. Noticeably, the Magistrate Judge makes no finding of fact or law that
3

Case l;14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 4 of 37

1

identifies any specific alleged “pleading deficiency” that goes to the merit of any cause of action

2 pled by Plaintiff; other than the erroneous references to 28 U.S.C. 1983. And even the merit of
3

that cause is essentially ignored on facts that State a Cause of Action; in particular, false

4 retaliatoiy infraction claims, which authority recognizes as stating a claim under 28 U.S.C. 1983.
5

Noticeably, NO OTHER CAUSE OF ACTION IS ANALYZED ON THE MERITS IN EITHER

6 THE ORDER DENYING APPOINTMENT OF COUNSEL OR THE R&R. Thus, there has
7

been no analysis of “likelihood of success on the merits” and on this factor, the motion for

8

appointment of counsel should have been granted.

9
10

B. NO AUTHORITY TO PREDICATE LEAVE TO AMEND OR

11

DISMISSAL WITH PREJUDICE ON WHETHER OR NOT APPOINTMENT OF

12

COUNSEL IS GRANTED; AN APPARENT UNCONSTITUTIONAL CONDITION.

13

The objected to Order Vacating Findings and Recommendations to Dismiss Case for

14 Failure to State a Claim, Failure to Comply with Court Orders and Failure to Prosecute; Order
15

Permitting Plaintiff to Submit Renewed Motion for Recruitment of Counsel (Doc 71); made NO

16

CHANGE IN THE ERRONEOUS ARGUMENT FOR DISMISSAL, stating: “Ifrecruitment

17 ofcounsel is warranted, the court will grant leave tofile an amended complaint with the
18

assistance ofcounsel If it is not, the court will recommend dismissal and will consider

19

whether dismissal with or without prejudice is appropriate, "(Doc 71, p.2 lines 5-7) The Order

20

further stated: “The court will REQUIREplaintiff to submit a declaration in support ofher

21

request to recruit counsel " The Order includes an objected to demand that “supporting

22 documents must be filed on the public docket...” Such requirement is not only without
23 authority; but is a violation of constitutional right of privacy in medical information, giving a
24

strong appearance of the bias that forms the basis of good cause for recusal and/or vacatur of the

25

referral and of overall unconstitutional condition precedent to leave to amend and to avoid

26 dismissal. The Magistrate Judge appears to believe that he has given “permission” to request
27

appointment of counsel; when in fact, he has REQUIRED such under onerous conditions or

28 have the Second Amended Complaint dismissed. Yet, it neither the criteria mandated nor
4

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 5 of 37
1 I Plaintiffs declaration evidence in response was acknowledged and appears to have NOT been
2

considered for the Order Denying Appointment of Counsel; precipitating, the R&R to DISMISS
WITH PREJUDICE.

4

There is nothing in the Order that shows how Plaintiff has met each of the stated criteria

5

for either granting or denying the motion to appoint. Plaintiff clearly made a substantial showing

6

of good cause for appointment of counsel. THE RESULTING DISMISSAL; AND WORSE,

7

DISMISSAL WITH PREJUDICE, UPON DENIAL OF APPOINTMENT IS WRONG,

8

WITHOUT AUTHORITY AND APPEARS TO BE AN UNCONSTITUTIONAL CONDITION

9

PRECEDENT TO LEAVE TO AMEND AND TO AVOID DISMISSAL. No authority was

10

cited to support a dismissal or dismissal with prejudice as a consequence of a denial of

11

appointment of counsel. It would appear there is NO DISCRETION to act in such a hostile

12

biased manner.

13

Plaintiff strongly OBJECTS to the requirement of a Declaration, which is then entirely

14

IGNORED AND EVIDENCE THEREIN NOT MENTIONED OR CONSIDERED FOR

1

GRANTING APPOINTMENT OF COUNSEL AND/OR MODIFYING THE R&R.

16

It appears the only reason the Magistrate Judge vacated the prior R&R, was to reissue the

1

SAME FINDINGS AND RECOMMENDATIONS WITHOUT THE CLEARLY ERRONEOUS

18

REFERENCES TO THE REVERSED ERROR RE FAILURE TO RECOGNIZE RIGHTS

19

UNDER THEADA IN CONTRAVENTION OF LIMITATIONS UNDER 1983. However,he

20

did NOT change the conclusions of failure to cure deficiencies alleged arising from the court

21

error. That error remains and is objected to here. Remarkably, the “edited”Findinys and

22

Recommendations do NOT MENTION THE ERRONEOUS DEMANDS for appointment

23

of counsel under threat of denial of leave to amend and dismissal if he does NOT grant

24

appointment of counsel. This is dear error of law and abuse of discretion!

25

The objected to Order Denying Renewed Motion to Appoint Counsel does admit the

26

wrongful nexus imposed: “that is recruitment ofcounsel was warranted, we would grant leave

27

to file an amended complaint with the assistance ofcounsel Id at 10, Ifwefound that

28

appointment was not warranted, we explained that we would recommend dismissal of this case.,
5

1

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 6 of 37

'■

1

Id” NO AUTHORITY IS CITED FOR THE CONTENTION THAT LEAVE TO AMEND

2

AND/OR DISMISSAL OF THE CASE, IS BASED ON A DENIAL OF MOTION FOR

3

RECRUITMENT OF COUNSEL, as questionably imposed in this case. The cases cited are of

4

limited relevance in instant matter; in particular, as there is no summary judgement motion

5

pending and the criteria listed for granting is misleading; in particular, as apparently limited to

6

“the most serious and exceptional cases... ” There is no authority or meaningful explanation for

7

said essentially over-exacting erroneous assertion.

8
t

ADA and Constitutional claims are recognized in authorities as being “complex”

9 warranting counsel with particular expertise in these areas of law, that will require factual
10

investigation, substantial difficult discovery, potential experts, and most importantly, will involve

11

credibility determinations; all of which will place Plaintiff at an extreme disadvantage,

12

attempting to address these concerns pro se; in particular, as a “stigmatized” individual. Even so,

13

such does NOT warrant dismissal with prejudice, where counsel is not appointed or otherwise.

14
15
16

C. SECOND AMENDED COMPLAINT DEEMED CAPABLE OF
AMENDMENT.

17

The Magistrate Judge appears to deem the second amended complaint capable of

18

amendment to cure alleged deficiencies and would allow an amendment of the entire complaint

19

upon appointment of counsel; with no restrictions/limitations stated. If finding that the second

20

amended complaint is appropriate for amendment by counsel, then it is also sufficient to state a

21

claim and avoid dismissal for either counsel or pro se plaintiff. To say otherwise, is to allow

22

amendment by able-bodied counsel and to deny amendment by disabled pro se to obtain a

23

discriminatory dismissal; in particular, “dismissal with prejudice,” a clear embodiment of hostile

24

discriminatory bias and good cause to recuse and/or vacate the referral. It is just plain wrong, a

25

manifest injustice; if not also, a constitutional violation.

26
27

28

D. APPOIRiMTENT OF COUNSEL APPROPRIATE IN THIS CASE.
The Magistrate Judge contends that only two criteria exist for determining whether to
6

i

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 7 of 37

1

appoint counsel: 1) likelihood of success on the merits and 2) ability of the plaintiff to articulate

2

his claims pro se in light of the complexity of the legal issues involved. [Substantial authority

3

recognizes that ADA and Constitutional claims are complex and have prompted appointment of

4

counsel] The Magistrate Judge gives an objected to omnibus, vague and ambiguous, conclusory

5

assertion, without fact in support; that he did not find "exceptional circumstances” and without

6 citation to any fact or claim, asserts an equally vague and ambiguous “cannot find that there is a
7

8

likelihood of success on the merits.”
Accordingly, there is no viable factual reason given for the determination. Merely

9 saying no prior complaint survived a section 1915A screening with an assumption that the “latest
10

complaint tracks the same content of a previous complaint that failed to state a claim,” is

11

specious and does not “track” the reversal of error. The content of the prior complaints are not

12

limited to the same form and content. But for the judicial error re overlooking the ADA claim as

13

the basis for the complaint and the on-going detriment such error has caused; it is likely that an

14

unbiased learned judge would have found and can still find a viable ADA claim and/or grant

15

leave to amend with or without counsel. Yet, no evaluation of the ADA claims has been made.

i

16 No fact or law has been cited for the proposition that there is not a claim stated. No prior
17

complaint is identified, no claim is identified and NO FACTS OR LAW PERTAINING TO

18 ANY CLAIM IN THE SECOND AMENDED COMPLAINT ARE EVER MENTIONED; even
19 though the directions for amendment were followed! Accordingly, it appears the second
20

amended complaint has not even had a first reading; as there is no basis in fact or law for the

21

vague and ambiguous assertions of failure to state a claim or failure to follow orders. The SAC

22

actually cites to authority that supports the facts as stating a claim, which is not referenced in any

23

of the objected to unfounded Findings and Recommendations. In fact, there is no showing in

24

fact or law of any alleged lack ofmerit attributed to ANY claim pled. There appears to be no

25 willingness to make a good faith effort to even read the claims in the SAC.
26

How can any Court in good conscience, say that Plaintiff has failed to state a claim,

27

where she suffered a broken nose and multiple injuries from other inmates known to be violent

28

by correctional officers, officers who were on notice of the threats against Plaintiff, the repeated
7

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 8 of 37

1

battery upon plaintiff and officers who left her exposed to such continued battery injury and

2

harassment, failing to act to protect Plaintiff from such inmates; officers who not only failed in

3

adequate placement to ADA unit and low risk facility mandated by Title XV; but who

4

themselves engaged in harassment and used excessive force inflicting injury; where as to Officer

5

Magdaleno, Plaintiff suffered injury by merely attempting to give the officer a medical record in

6

support of her accommodation request? Failure to send legal mail is a constitutional violation

7

alleged in the complaint; yet, this Court appears to ignore this claim, even where the mail was

8

addressed to the Supreme Court of California causing prejudice to plaintiff regarding her

9 incarceration! How can this Court ignore the feet that even though Plaintiff is a prescribed
10 wheelchair user; of which CCWF was on notice from her physician, she was denied this durable
11

equipment and made to suffer repeated fell injury, pain, surgery, and repeated hours long nose

12 bleeds attempting to traverse long distance to meals, programs and medical facilities and where
13

even her prescribed shoes were taken away from her! False retaliatory infractions are actionable

14

under 1983; yet, this Court appears not to have read that claim in the complaints. The claims in

15

the SAC are meritorious; but appear NOT to have been read.

16

Likelihood of Prejudice re Credibility Determinations. It appears that what has been

17 read and/or of influence disclosed from sources outside this case, is the false and defamatory
18

media comment, the “fake news” from over 20 years ago, when plaintiff suffered from

19 undiagnosed Hashimoto’s Disease and was nearing myxedema coma; and thereby, could not
20

competently defend an insurer’s bad-faith misuse of the new vexatious litigant statute, in defense

21

of its client thief; a thief, who was arrested for causing Plaintiff injury while stealing her carpets.

22

Even though a determination imposing the stigma and imposition of a bond could not issue on

23

the facts and law as it stands today, Plaintiff was also erroneously denied an appeal of the

24

decision by a single judge who mistakenly dismissed the appeal by reason that the bond was not

25

paid.

26

The State hearing judge inl995, was more interested in having cameras in the courtroom

27

to promote the insurance industry’s campaign in support of said statute; which would increase

28

industry profit margins by denying claims of self-represented persons, than in providing a fair
8

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 9 of 37

i

1

and impartial adjudication to pro per parties and persons with disabilities. Plaintiff has suffered

2

enough prejudice from such “ancient” stigma; a potential for prejudice if acting pro se in instant

3

action. Perhaps this Court has acted on the wrongful stigma, which inflicted false and

4

defamatory media comment; for an operative belief, that Plaintiff is NOT DESERVING of due

5

process and a remedy for violation of her constitutional rights through appointment of counsel.

6 That would be wrong. The potential for prejudice in credibility determinations exists here.

i
i
i

i

7

Plaintiff does not want to defend against the stigma pro se in a civil rights case. Pursuant to

8

Tabor v Grace 6 F3d 147 (3rd Cir. 1993), the Court stated that “when a case is likely to turn on

9

credibility determinations, appointment of counsel may be justified. See Maclin, 650 F2d at

10

888 (“[Cjounsel may be warranted where the only evidence presented to the fact finder consists

11

of conflicting testimony.”) (emphasis added).” The case here would likely raise fact issue re

12

witness credibility by reason that the “stigma” would be used to inflict prejudice. Said reason

13

warrants appointment of counsel in this case as an “exceptional circumstance;” in addition to

14

other good cause presented in support of the application for appointment of counsel.

i

15

Reference to list of disabilities in the SAC, WITHOUT TAKING JUDICIAL NOTICE

16

OF THE ACUTE MEDICAL CONDITIONS AND ADVANCING LIMITATIONS of

17

permanent disabling medical conditions filed under seal and facts by declaration, not even

18

mentioned in the Order, is not good cause to deny appointment of counsel by making reference to

19 the SAC list of disabilities and then saying: “we do not find that plaintiff is
20

inarticulate...plaintiff,s intelligence is apparent.” Plaintiff objects to this misleading statement.

21

On its face, the comments appear to be disingenuous, since Magistrate Judges have repeatedly

22

alleged just the opposite in objecting to extensions of time needed to accommodate unanticipated

23

effects of disability, injury, surgery, medical treatment requirements, slowed manual function,

24

defense in trial conflicts and cognitive dysfunction. Additional extensions of time have been

25

necessary because the first requests are not fully granted; as occurred in instant matter, to which

26 objection is hereby made. The physicians have stated that six month extension is appropriate;
27

yet, only 45 days was given following acute disabling injury April 26,2019, which has continued

28

to have distracting concerning negative effects with substantial pain and swelling inflicted by
9

1

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 10 of 37
1

long period of sitting. Only morning hours are viable for intellectual work, and even that limited

2

time is often abated by disease related cognitive dysfunction. Lack of sufficient time U

3

prejudicial and requests for time should not be construed by the court as wrongful delay bv

4

a person with disability. All requests for time sought and orders of time given were with good

5

cause. There is nothing wrongful about asking for the time needed for meaningful

6

accomplishment of the task; more often than not, being prejudiced by lack of the time requested

7

as needed by medical necessity.

8

Plaintiffs medical experts have stated that Plaintiff: “& not willfully ignoring the courts

9

orders, but her medical condition has made her unable to comply with the time constrains due

10

to... and needs to have a court appointed counsel to help prepare a more logical, concise, and

11

complete document according to the court*s instructions(See August 23,2018 statement

12

from Michelle L. Apperson, MD, PhD. Thus the alleged failures erroneously characterized as

13

“refusals” are NOT WILLFUL; but due to progressive disease based cognitive dysfunction;

14

which cannot improve; but can only get worse, warranting appointment of counsel. Stress from

15

insufficient time, difficulty organizing and lack of focus aggravates effects of disability.

16
i

It is truly shocking that because of the apparent unwillingness of the Magistrate

17

Judge to accommodate disability. “appointment ofcounsel is not warranted. we will

18

recommend dismissal ofthis case in a separate order” A DISMISSAL WITH PREJUDICE!

19

Thus a complete denial of constitutional right of access to the court! This is wrong and a

20

manifest injustice: if not also a constitutional violation. It is not the court’s case completion

21

time lines that should determine the result here: but the actual good faith merit of the

22

claims without the prejudice of “disbelief” from stigma.

23
24

E. STRONG OBJECTION TO MAGISTRATE JUDGE FAILURE TO

25

TAKE JUDICIAL NOTICE OF MEDICAL EVIDENCE IN SUPPORT OF

26

APPOINTMENT OF COUNSEL The Magistrate Judge made no ruling on request to take

27

Judicial Notice of Medical evidence filed under seal in support of the appointment of counsel and

28

objections to the Findings and Recommendations of the Magistrate Judge. Such medical
10

i

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 11 of 37
1

evidence should negate any claim of “refusal,” “willful failure to comply with a court order,” and

i

2 any alleged “failure to prosecute;” if not also a “failure to state a claim,” if not in the format that
3

would be best known to the Court in complex claims, as in this case. A plaintiff can only do

4 what the court allows in the time it presents and/or the time the Court takes to act within its own
5 necessity. Time is the enemy and should not be used to inflict prejudice on a Plaintiff with
6 disability. Absent sufficient time, no person with disability can hope to protect his/her
7 constitutional right of access to the court Appointment of counsel is properly granted, where
8 time is in issue; as appears to exist in present case. The factors for appointment of counsel have
9 U been met in this case.
10

The Order Denying Renewed Motion to Appoint Counsel and the recommendation

11 | of dismissal based on said denial should not be adopted bv this Court, but declined with
12 direction that the motion for recruitment of counsel be granted with leave to amend.
13
14

H. OBJECTIONS TO R&R.

15

Without regard to Plaintiff’s objections and notice of reversal of the prior error upon

16

which the argument for dismissal was substantially based, Magistrate Judge Peterson, has failed

17

to change/reverse the argument arising from the error set forth by prior judges; and instead, has

18

erroneously REPEATED them! There is essentially NO CHANGE in the apparent “rubber

19 stamping” of the factual and legal error objected to previously in this action. The Findings and
20

Recommendations by Magistrate Judge Peterson have not changed; and thus, the objections also

21

remain essentially the same and must be reiterated below, without elimination of comment on the

22

prior errors; in order to show what came before, upon which alleged deficiencies and failure to

23

comply with orders were based and why such continues to be wrong in repetition without actual

24

citation to any cause of action in support of the vague and ambiguous false assertions. There is

25

no basis in fact or law for dismissal of any particular claim set forth in the complaint.

26
27

28

A. Plaintiff objects to the lack of factual findings and prejudicial omissions
in the R&R: as well as. to the misstatements/false assumptions in R&R as follows:
11

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 12 of 37
1

A major general objection to recommendations ofthe Magistrate Judze. applicable to all

2

points below, is that the R&R fails to provide a statewient/findinz offact or provide analysis on

3

the MERITS ofany one ofthe causes set forth in the SAC and/or mention the compliance

4

chanzes pertaining thereto or any claim/cause from its predecessor complaints: a SAC, which

5

DID COMPLY RE FIVE CA USES FOUND APPROPRIA TE FOR AMENDMENT and did state a

6

claim/cause upon which reliefmay be granted. Accordingly, on this basis alone, there can be no

1

valid assertion of failure to state a claim et al fP1ea.se see citations within the SAC and also see:

8

Medical Exhibits/Requests for Judicial Notice, filed under seal.) Any allegations asserted as

9

alleged “fact” in the R&R are subject to this objection and objection to being vague, ambiguous

10

and irrelevant innuendo/false assumption as more fully set forth below.

11
12

In the objected to: “I. Introduction” to the R&R. thg Magistrate Judge

13

continues the mistaken misleading assertion that the plaintiff is “proceeding in this civil action

14

under 42 U,S,C. section 1983. ” (Doc. 641 [Note: Doc. 75 adds “the American’s with Disability

15

Act f“ADA”l and section 504 of the Rehabilitation Act (“RA”1 at page 1 line 19-2Q: hut fails tr>

16

correct the misrepresentations in the body of the Doc. 75 Findings and Recommendations arising

17

out of the error and “rubber stamps” the remainder of Doc. 64 without substantial r.hanpe Thug,

18

the objection remains to the initial failure to acknowledge the ADA and resulting error therefrom

19

as_fQllows.l This substantially erroneous statement has led to prejudicial error and manifest

20

injustice in apparent denial of relief against relevant defendants to which plaintiff is entitled

21

under the American’s With Disability Act/Rehabilitation Act; as well as, under related/included

22

ADA State law claims. The original complaint cover sheet, clearly identifies the case as one

23

under the ADA; as does the original complaint with facts showing defendants wrongful acts

24

arising out of discrimination/retaliation for her ADA complaints / failure to accommodate.

25

Although reversed upon Plaintiffs motion to alter et al. (Doc 14), the original error was made by

26

Hon. Ralph Beistline in his Order (Doc 13) referencing dismissal of the State of California, its

27

agencies and individual defendants in their official capacity, an error which has been wrongfully

28

repeated bv subsequent judicial officers, without apparent awareness of and/or in disregard nf fra
12

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 13 of 37
1

fact that His Honor reversed his error as set forth in (Doc 19) Order Regarding Motion at Docket

2

14: “Plaintiff suggests that the Court erred in dismissing her complaint without leave to

3

amend as against the State, the State entities, and the individuals acting in their official

4

capacities. The Court agrees. In re-reviewing the Complaintfiled, it appears that Plaintiffis

5

suing under Title II ofthe American fs With Disability Act (“ADA ”) (footnote 1,42 U.S.C

6

section 12131 et seq.) The Eleventh Amendment does not bar suits brought against the States

7

under Title II ofthe ADA. (footnote 3; United States v Georgia, 546 U.S. 151,159 (2006)).

$

Therefore, in amending her complaint, Plaintiff may allege violations of Title II ofthe ADA

9

as against the State, its agencies, and the individuals acting in their official capacities. ” Thus,

10

Plaintiff has relied in good faith on Judge Beistline’s Order in bringing her amended complaints

11

to include these allowed claims and a subsequent order/dismissal to the contrary is properly

12

objected to as error, including but not limited to the Magistrate Judge’s recommendation in the

13

“Introduction” that the SAC “be dismissed with prejudice based on plaintiffs repeatedfailure to

14

cure pleading deficiencies and to comply with court orders.”

i

15

[ALTHOUGH THE ADA HAS BEEN ADDED TO THE INTRODUCTION, THE

16

REMAINDER OF THE R&R RELIES ON THE RESULTS OF THE ERROR. THERE IS

17

ESSENTIALLY NO CHANGE IN THE REMAINDER OF THE R&R FROM THAT

18

PREVIOUSLY ISSUED BY THE MAGISTRATE JUDGE WHICH WAS SUBJECT TO

19

THESE AND OTHER OBJECTIONS JUDICIALLY NOTICED ABOVE. FURTHER, THERE

20

IS NO CHANGED BASED ON THE PRIOR OBJECTIONS (DOC 67), ADDITIONAL

21

DECLARATION (DOC 72)AND MEDICAL EVIDENCE (DOC 73) SUBMITTED UNDER

22

SEAL IN SUPPORT OF APPOINTMENT OF COUNSEL WITH REQUEST FOR JUDICIAL

23

NOTICE FOR WHICH NO RULING ISSUED. PLAINTIFF INCORPORATES DOC 72 AND

24

DOC 73 BY REFERENCE HERE WITH REQUEST FOR JUDICIAL NOTICE.]

25
26

2. In the objected to: “II. Background subsection a. Original Complaint.” (lines 7-

27

13) \h$ Magistrate Judge errs in deleting the above identified mistake in the Doc. 64 R&R

28

WITHOUT DELETING THE NEGATIVE REPRESENTATIONS BASED ON THE FAILURE
13

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 14 of 37
1

TO CORRECT: thereby, continuing to rely on objected to mistaken reliance on Section 1983

2

without regard to rights under the ADA. The Magistrate Judge references (Doc. 13) in the Doc.

3

64 R&R specifically alleging that the court: “screened the original complaint and dismissed (1)

4

the State ofCalifornia, (2) California Department ofCorrections and Rehabilitation, (3)

5

California Correctional Women *s Facility, (45) California Correctional Health Care Services

6 and (4) all individual defendants in their official capacity without leave to amend. (Doc, No. 13
7

at 7.) The court explained that the State ofCalifornia and its agencies were immune from

8

liability and that injunctive relief could not be granted against the defendants in their official

9 capacities because plaintiffwas no longer in custody at the time ofscreening (Id)” [Note: Quote
10

not in Doc 75; but still being used as operative for the inferences of alleged Plaintiff “failure”

11

based thereon.] Thus, there is an objected to failure by the Magistrate Judge to acknowledge the

12

Honorable Judge’s admission of error and reversal of same and to abstain from all further

13

application of Section 1983 error to the ADA causes and defendants. Whereupon, by failing to

14

correctly report the reversal of the dismissals in the R&R and change the recommendations based

15

thereon, the Magistrate Judge has either made an inadvertent error and/or intentionally failed to

16

report the reversal in order to prejudice Plaintiff with a continuing objected to wrongful

17

inference therefrom of: “willful” failure to correct “pleading deficiencies” and/or failure

18

to comply with an order; both of which are wrong and do NOT SUPPORT THE

19

RECOMMENDED DISMISSAL OF THE SECOND AMENDED COMPLAINT. Plaintiff

20

fully complied in good faith.

i

21

i

22

13 as to “supervisory capacity” without regard to the ADA correction, are also wrong as set forth

23

in the second of the alleged “pleading deficiencies.” which is STILT. ERRONEOUSLY STATED

24

IN THE CURRENT R&R. What is remarkable, is that the Magistrate Judge does NOT

25

acknowledge that “named certain defendants” in their “supervisory capacity” have been properly

Accordingly, the further references under “Original Complaint” re Section 1983 in Doc

26 plead in the SAC as having “directed or knowingly failed to prevent deprivation of plaintiffs
27

rights” and knowingly joined in the failure to protect/deprivation of Plaintiff s constitutional

28

rights. So, the Magistrate Judge is WRONG, both under the ADA and 1983.
14

.

\

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 15 of 37

1

Plaintiff objects to the Magistrate Judge comments on the Original Complaint as being in

2

narrative form and quotes a section of Doc 13 which “noted that it was ‘extremely difficult, if at

3

all possible to determine from [plaintiff’s complaint] which act or acts of each defendant violated

4

[p]laintifF s rights” because plaintiffhad alleged “a multitude of different acts without clearly

5

specifying which defendants) committed which act.” Again, Plaintiff must object to an

6

incomplete misleading reference which has a footnote 19 thereto, which states: ltThe

7

[ORIGINAL] Complaint consists ofnumerous unnumberedparagraphs, undivided into causes of

8

action. In amending the Complaint Plaintiffshould: (I) number the paragraphs sequentially;

9 and (2) divide her Complaint into separate claims/causes ofaction to the extent that the claim is
10 directed toward different defendants arising out ofdifferent acts or on different dates." Again,
11

remarkably, the Magistrate Judge does NOT acknowledge that these instructions were met in the

12 amended complaints. It appears that the subsequent corrected/improved amended complaints
13

were NOT read. A “goose-step” repeat of alleged deficiencies from the original complaint that

14 have been corrected and/or was judicial error, is itself wrong.
15

Plaintiff agrees that her original complaint was not the best, having been drafted in

16 memory streaming chronological narrative form to state thefacts upon which causes for relief
17

could issue showing relationship between ADA complaints and resulting retaliatory herm;

18

without ability to edit on a typewriter using her crippled painful swollen hands, severe back

19 pain/spasm and frequently numb arm; all the while being screamed at, pelted with garbage,
20

having water thrown on her and her typewriter, with loud music playing from annoyed inmates

21

pushing/grabbing in effort to destroy her typewriter and stop her paperwork. Here again, custody

22

officers took no action to protect Plaintiff from the harm inflicted by other inmates; in spite of

23

reports and requests that they do so. Under the circumstances, it is a wonder that the original

24

complaint was able to be filed in any form. Clearly the suggestions specified by Judge Beistline

25 were followed to the best of Plaintiff’s diminishing capacity in the time allowed for the amended
26 complaints upon release. The unsupported with feet innuendo to the contrary by the Magistrate
27

28

Judge in the R&R is wrong and objected to here.
Magistrate Judge also comments with mistaken innuendo that “the court concluded that it
15

.

.

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 16 of 37

1 | would not exercise supplemental jurisdiction over plaintiffs state law claims unless the same act
2 | alleged in the state claim also gave rise to a cognizable federal claim.” This comment from the
3

R&R is not quite correct and is somewhat misleading in that what Judge Beistline actually said

4 was that: “Accordingly, this Court will exercise its supplemental jurisdiction over state law
5

claims solely to the extent that the same act also gives rise to a cognizable federal claim

6 (emphasis added).” Where the reference to Section 1983 was vacated, the references to ADA
7 now apply under State law for the same acts; and thus, supplemental jurisdiction thereby
8

DOES APPLY UNDER JUDGE BEISTLINE’s corrected screening order. Thereby, all

9 | assertions in the R&R that state law claims must be dismissed is objected to as error and an
10 abuse of discretion in contravention of the intent of the corrected DOC 13. making the state
11

Hififrimination laws application in this case under the ADA. Consequently, any contention in the

12 R&R that by Plaintiff including State law ADA claims* she has in any way “chosen to ignore” or
13

“refused to comply” is objected to as false and misleading; in particular, in light of other factors

14 y and diminishing medical capacity.
15

Importantly, even though denied without prejudice, the Plaintiffs prior request for

16 II appointment of counsel was also erroneously denied on the basis of the Section 1983 error (Doc
17 1 26) (See footnote 5 re citation under Section 1983). Appointment of counsel is available in an
18 I ADA case. Remarkably, the Magistrate Judge utterly FAILS TO MENTION HIS
19 UNCONSTITUTIONAL CONDITIONAL ORDER DENYING APPOINTMENT OF
20 1 COUNSEL PRECIPITATING THE DENIAL OF LEAVE TO AMEND ABSENT COUNSEL
21

AND RESULTING RECOMMENDATION OF DISMISSAL WITH PREJUDICE BASED ON

22 SAID DENIAL OF APPOINTMENT. The absence of this point, clearly does not meet the
23
24

“smelliest.”
Since the screening order pertaining to the original complaint erroneously focused on

25 || Section 1983 in its analysis, without application of ADA and related law principles, and omits
26 viable claims/causes, it should NOT be relied upon for any determination by the Magistrate
27 Judge regarding a SECOND AMENDED COMPLAINT; in particular, because the pleading
28 “form” aspects of the “original” complaint were corrected when a computer was available and
16

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 17 of 37

1

where not affected by time, medical limitations and the active “shooter” type behavior of abusive
inmates.

3
4

3. The objected to: II. Background b. First Amended Complaint. The R&R

5

confirms that the prior alleged defects in the original complaint re numbered paragraphs, separate

6 causes of action, specified defendants and better form/organization, were presented in the
7

amended complaint; but fails to credit Plaintiff with compliance in making these advances in the

8

FAC. Since there was error in failing to mention the true and corrected scope of the original

9 complaint as being one under thexADA et al, there is no mention of this correction or analysis
10

from that perspective for each stated cause of action and defendant; in particular, as being

11

sufficient notice pleading with facts/elements to state a cause of action.
There is reference to a screening order that alleges that the FAC failed to state a claim on

12
13

which relief may be granted; but is objected to as making no reference to or analysis of ANY

14 alleged claim/cause as it relates to the SAC. In referencing the screening order re FAC, it
15
'

alleges same pleading deficiencies as in the original complaint, which per above were in fact

16 NOT repeated and that the FAC did comply with understandable inability to meet the alleged
17 “form” of complaint requirements. It is wrong to merely rubber-stamp a prior error as repeated,
18

where no fact is stated that applies. The contentions in the screening order re FAC allegedly

19 referencing the original complaint are not only erroneous; in that, the original complaint
20

screening order does not quote such language; but in fact, the FAC is NOT in either the same

21

format as the original and the requested formatting changes were corrected in the FAC as stated

22

above.

23

Known Defendants Specified and Doe Defendants Entitled to Discovery. The R&R

24

mistakenly attempts to infer “dismissal” fault from reference back to prior screening orders

25

which purportedly alleged “improper linkage;” where again, the contention is vague without fact

26

and the analysis is faulty under 42 U.S.C. section 1983. The law allows Doe defendants to be

27

identified through discovery with a fuller revealing of each thereof s identity and participation in

28

the deprivation of rights. There is no authority cited for the contention that where discovery may
17

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 18 of 37

1

“fill in the gaps” that a dismissal must follow as to ALL CAUSES OF ACTION AGAINST

2

IDENTIFIED DEFENDANTS AND DOE DEFENDANTS WHERE THEIR ACTIONS ARE

3

LINKED TO SPECIFIC CONDUCT RE DEPRIVATION OF CIVIL RIGHTS. Where

4

otherwise properly pled to provide notice to defendants; named and/or Doe defendants, there is

5

no authority for a dismissal of the entire cause of action. A mere repeat of “words” and/or

6 assumptions with innuendo in the R&R from objected to PRIOR SCREENING ORDERS does
7

not itself “link” the disputed deficiency to either fact or the SAC.

8

The SAC does not merely provide a “list of bad things that happened and say that all

9

Defendants or a group of them did or enabled those bad things as she has done in her earlier

10 pleadings.” That was cured and there is no factual reference in the SAC that it was not.
11

Continuing the improper false and misleading reference to the screening order re FAC re having

12

“not described how each Doe defendant personally participated in a violation of her rights,”

13

without specific reference to the SAC is specifically objected to as erroneous; because the SAC

14

does in fact, make substantial “linkage” and places Doe defendants within the causes to which

15

each applies. Importantly, for each instance of failure to protect, each is listed with citation

16

to the paragraphs of facts which name the defendants and what each did to violate

17

Plaintiffs yfyil rightsT

18

Clearly, plaintiff ran out of time in making all intended edits where Does are named; but

19

there is no fault in not having specific identity where the law allows same to be added through

20

discovery. Thereby, the inference that Plaintiff has failed to comply and/or cure

21

the “Doe”/ Defendant is false and where alleged to be incomplete, are property subject to further

22

amendment; in particular, upon discovery as the law allows. Any alleged failing is time based

23

and failure of sufficient time accommodation is a discriminatory penalty against a person

24

with disability and good cause to appoint counsel.

25

In that the analysis in the screening order re FAC was substantially erroneous coming

26 from Section 1983; the R&R wrongfully repeats the error from the original screening order
27

without regard to the correction made pertaining thereto, directing analysis under the ADA and

28 withdrawing dismissals of named defendants and related supplemental State claims thereby.
18

.

Case l:14-cv-00580-UO-JDP Document 80 Filed 08/19/19 Page 19 of 37

1 I Thus, making references to prior screening orders without the correction for analysis of the SAC
2 is not only factually defective, it is against law under the ADA applicable in the case and
3 I erroneous for dismissal of defendants and causes which were reversed by order of the court in
4 | correcting its error.
5

The R&R is also erroneous in that there is no reference to facts specific to die SAC in

6 | support of its contentions: in particular, where allegedly arising from prior screening orders. In
7 an attentive reading of the SAC with the corrections in mind; in particular, the causes directed for
8 amendment, there is found good cause to contradict the assertions made in the R&R. Thus, the
9 I R&R relying on the error in analysis from prior screening recommendations for dismissal,
10 appears to be fundamentally erroneous and a deprivation of Plaintiff s constitutional rights.
11 | Plaintiff filed objections (Doc. 52) to the FAC screening order (Doc 47) and incorporates same as
12 I fully set forth herein.
13

Even if there was not error, the five claims/causes specified in the FAC screening order

14 II were amended in accordance therewith, within the time provided and Plaintiff s limited medical
15

capacity; are meritorious, such that no such should be subject to the recommendations of the

16 R&R for denial ofleave to amend or dismissal with prejudice. Again, Plaintiff objects that there
17 is NO FACT or authority specified as to the SAC in support of the recommendations in the R&R.
The R&R does not specifically state and/or misstates the alleged “deficiencies” to be
18
19 || “cured” in the SAC; as well as, the alleged “warning” purportedly from the FIRST AMENDED
20 COMPLAINT screening order. The FAC screening order identifies the five claims to be
21

amended as 1) Eighth Amendment Failure to Protect; 2) Eighth Amendment Excessive Force; 3)

22

Americans with Disability Act and Rehabilitation Act; 4) Fourteenth Amendment Access to

23

Court; and 5) First Amendment Retaliation. Although not quoted in the order set forth in Doc

24 1 47, the five claims/causes to be amended contained suggestions as to what organization / facts
25 would assist the court in discerning the elements required for each cognizable claim/cause; and
26 gave leave to amend to cure “deficiencies identified” for each.
27

The SAC amends/cures identified “deficiencies” in accordance with the court’s

28 | suggestions with particularity and to the best of Plaintiff s abilities within the time
19

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 20 of 37

1

provided; yet, no such “cure” or lack thereof, is referenced on any point of fact or law in

2

the R&R. It is as though the Second Amended Complaint was not read at all! Plaintiff

3

strongly objects to such disregard in the R&R of actual reasonable compliance with the court’s

4

suggestions; in what appears to be, a concerted effort to put a senior disabled person out of court

5

without regard to the merits of his/her claims/causes with the appearance that such persons are

6

not entitled to justice/relief from constitutional harm under the law; because, persons with

7

disability are just “too much trouble” for the court to accommodate. Where, as here, there is no

8

reference to any specific cause pled with fact and authority that supports an alleged failure to

9

state a claim and futile ability to amend, there is error and an appearance of actual failure to

10 exercise discretion and/or an abuse thereof.

^

11

Plaintiff objects to the incomplete misquoted so-called ‘‘warning” apparently relied upon

12

from the prior screening order referenced in the R&R on grounds that it is principally irrelevant

13

re Plaintiff; as she is NOT a prisoner and the alleged conditions precedent to not having her case

14

dismissed are overly broad appearing to cover all possible ways of putting someone out of court

15

without specific application to this Plaintiff on fact or law as to the merit on any claim/cause in

16 her SAC; in particular, where the so-called “limits” are substantially erroneous, not supported by
17

the law on the facts of this case and cites no authority which limits an amended complaint to

18

“twenty pages or less” or inflicts prejudicial punishment where “be brief’ is not explained in fact

19 or law and an “attempt” to file “twenty pages or less” is unsuccessful. Thus, there is an
20

appearance for recusal, not dismissal; showing discriminatory bias against pro se prisoners and/or

21

persons with disabilities, subjecting them - in fact- to hostility and higher standards than applied

22

to able-bodied persons/attomeys. An R&R is objected to in its entirety, where as here; it appears

23

that it is based on prior error and/or discriminatory bias, without fact or law in support regarding

24

the merits of any claim/cause presented and where extensions of time granted for good cause

25

shown are deemed accumulated grounds for dismissal. Such position taken by a judicial

26 officers) is not only wrong, it is a manifest injustice in contravention of fundamental principles
27

ofnon-discrimination, fair play andjustice in this Country and is in contravention ofpolicyfor

28

hearing ofcases on their merits.
20

I •

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 21 of 37

1

4. Objected to: II Background “c” Second Amended Complaint. Plaintiff objects

2 that the R&R places “form” over “substance/merit” regarding the SAC, making comment solely
3

on it’s length and NOT THE MERIT of any amended claim/cause of action; in particular, foiling

4 to address the five claims/causes that were amended in conformity with the suggestions as
5 | understood by Plaintiff, which were set forth in the FAC screening order. The R&R references
6 “numbers” of pages and paragraphs without any mention as to their necessity or viability for
7 amendment in conformity with the suggestions put forth in the FAC screening order. The R&R
8 is objected to as vague, ambiguous and misleading in not clarifying that the alleged “new
9 allegations” are NOT “new” causes of action and it foils to identify what is allegedly attempted to
10 | be restated re dismissed claims; where by correction of original screening order and/or error,
11

some unidentified claim in the R&R may in fact not have been dismissed and/or was wrongfully

12 dismissed. The prior screening orders themselves appear to mandate additional information to
13 I clarify and meet pleading requirements. There is no comment whatsoever that any additional
14 page or paragraph is not in conformity with necessity to meet the requirements for stating a
15

cognizable claim with facts sufficient to meet the need for notice to defendants. In support of her

16 facts and claims, Plaintiff included citations to authority in the SAC which show that the facts as
17 presented in the amended claims each meet the pleading elements / requirements for each cause;
18 and if anything is deemed to be inadvertently missing, that the SAC can be amended to include
19 any such. There is nothing in the R&R section re SAC that is a challenge on the merit of
20 Plaintiffs facts in conformity with the elements ofeach cause and/or the citation tofact and
21

law in support of her claims/causes. The citations show that the same and/or similar facts

22

upon which a cause has been stated in the cited published authority is on point with Plaintiff

23

ownfacts and claims/causes. For example, Plaintiff presents facts re retaliatory disciplinary

24 charges, names the defendants and links same to other causes re disability
25 discrimination/retaliation and first amendment violations citing Zilich v Longo 34 F3d 359 (6th
26 Cir. 1994). (Doc 63, page 99) The case holds that “Retaliation for exercise of First
27 Amendment Rights is itself a violation of the First Amendment.” Thus, a cause under 42
28 U.S.C. 1983 in the SAC is stated as First and Fourteenth Amendment violations. Since the
21

.

1

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 22 of 37

retaliatory infractions arise from failure to accommodate disability and Plaintiffs complaints

2 pertaining thereto, they are also retaliatory violations of the ADA and First Amendment. There
3

should be no question that Plaintiff has stated a claim. The bigger disturbing question is why has

4 the merit of her SAC not been recognized? Perhaps the complete failure to address even one of
5 her amended claims is BECAUSE THEY ARE MERITORIOUS and there is some “game afoot”
that instructs such NOT to be recognized. That again, is ground for recusal, not dismissal.
7

Plaintiff acknowledges that her complaint is lengthy and respectfully submits that it
would have been of lesser length with sufficient time within the scope of her disabilities to edit

9 the complaint more fully. The additional length grew out of an attempt to comply with the
10 screening order to focus on each of the suggestions to be drafted into the merits of the five stated
11

claims by placing them first (Doc 63 pages 77-102) along with the relevant facts from the

12 broader general allegations and chronological statement of facts( Doc 63, pages 21 -77) placed
13

into each of the causes ensuring each element is stated, each defendant identified to the best of

14 information available and that his/her action was specifically addressed; including Doe
15

defendants. Plaintiff even put in BOLD lettering the names of the Defendants/Does to make sure

16 no such was overlooked within each cause of action and was related to each of his/her conduct
17 therein.
1$

However, in doing so, it was borne in upon Plaintiff that the complaint was getting longer

19 and would need additional time for editing; where there was insufficient time within the scope of

l

20

limitations of disability to accomplish her intended purpose and make the edits to reduce the

21

number of pages etc. and still meet the filing deadline. Accordingly, Plaintiff was left with the

22

difficult “Catch-22" choice of not being able to file any proper SAC whatsoever within the time

23

remaining and give up on her wish to improve circumstances for senior disability persons in the

24

California prison system or pray for understanding of a gracious court by a good faith filing of a

25

longer SAC with all its parts to be of best assistance to the court by a “wrap up” of what had been

26 accomplished on the five specified causes and edit it within the existing amended complaint for
27

fax filing; in order to meet the time deadline. Thereby, something was deemed better than

28

nothing by necessity. Plaintiff wanted to send a letter explaining her circumstance with apology
22

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 23 of 37

1

for the inability to meet both the merits amendments and also make it shorter; but fell ill from the

2

stress and was afraid of making a mistaken impression by doing so.

3

Stress from insufficient time aggravates the effects of disability rising to the level of

4

complete cognitive dysfunction. Plaintiff presented medical verification of the need for specific

5

time. The time granted as NOT sufficient and has and may continue to prove prejudicial.

6 Constantly giving less time than that requested as medically necessary for a person with disability
7

is inherently prejudicial and good cause to appoint counsel; as necessary for Plaintiff, verified by

8

her physicians. It is not possible to predict the periods of complete exhaustion and inability to

9 perform occasioned by disease detriment. The merits, not disability should rule in this matter; in
10 particular, where the merits cannot be reached in manner expected by the Court without counsel.
11

Counsel should be appointed, even sua sponte, as the law allows.

12
13
14
15
16

Objected to: “PI. Discussion.”
a. Plaintiff has complied with federal pleading standards within the best of
her ability pro se delimited by disability.
Contrary to the objected to assertion of the Magistrate Judge, the SAC should not

17 be dismissed for failure to state a claim for relief under Rule 8 of the Federal Rules of Civil

>
i

18

Procedure. Under Rule 8, a complaint need only make a “short and plain statement of the claim

19

showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2) And, it need only provide

20

“enough facts to state a claim to relief that is plausible on its face,” BellArl Corp. v. Twombly,

21

550 U.S. 544,570(2007). Thus, a complaint that may be sparse on the facts is permissible

22

under Rule 8: and would appear to be equally so. that a complaint that mav be generous on

23

the facts with more complete notice of the claims against defendants is also permissible.

24

There appears to be no specified restriction on either the limit of being “sparse” or “generous” in

25

fret presentation so long as a defendants gets even a “sparse” idea of the claim of harm/relief

26 being alleged against them. If a defendant gets a “generous” idea of the claim, that would appear
27

28

to be all the better, not a ground for dismissal.
Not all complaints are the same or filed by the same person. Cases may require a longer
23

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 24 of 37
1

rendition of chronological facts in order to understand the scope of the complaint and nexus

2

between the causes and what each defendant did in violation of a plaintiff s civil right; as in

3

instant case. Being “generous” of notice to defendants should not be a ground for dismissal.

i

4

The Magistrate Judge cites to Ashcroft v Iqbal, 556 U.S. 662; 679 for the representation

5

that allegations that “do not permit the court to infer more than the mere possibility of

6

misconduct' does not state a plausible claim for relief and dismissal is appropriate. However, the

7

Magistrate Judge makes no reference to any part of the SAC that is alleged to be subject to the

8

contention of a “mere possibility of misconduct,” and Plaintiff objects to any inference that such

9

applies to instant case. On the contrary, Plaintiff states clear and unambiguous actual misconduct

10

re assault and battery by custody officer causing injury to Plaintiff, multiple instances of custody

11

officer failure to prevent harm to Plaintiff including but not limited to multiple assaults/battery,

12

some with serious injury re broken nose by inmate and causation shown for wrongful infliction

13

of right shoulder injury requiring surgery; as well as, specific multiple instance of failure to

14

accommodate disability under the ADA, retaliation for her complaints with multiple instances of

15

false disciplinary charges arising out of complaints re failure to accommodate: which is

16

actual misconduct for which Plaintiff suffered harm/restrictions and denial of access to the court:

17

retaliatory punishment, in contravention of any assertion that such was a “mere possibility.”

18

Again, the Magistrate Judge failed to state one page or paragraph in which the cause foils by

19

reason of a “mere possibility of misconduct.” As cited in the SAC, such conduct by defendants

20

constitutes violations not only of the ADA; but specifically constitutional violations under 42

21

U.S.C. section 1983.

22

The R&R cites to Cafasso, U.S. ex rel v Gen. Dynamics for the contention that a district

23

court may dismiss a complaint for its length and lack of clarity under Rule 8; which essentially

24

makes the same argument as that objected to above and objected to here; but admits that there is

25

NO LEVEL of “clarity” or specified "length” that satisfies Rule 8; but contends that allegations

26

that violate Rule 8 are ones that are “argumentative, needlessly lengthy, ambiguous, confusing,

27

conclusory, repetitive, irrelevant or incomprehensible (emphasis added). See id. At 1059.'*

28

However, the R&R makes NO SPECIFIC REFERENCE WHATSOEVER TO ANY PART
24

Case l:14-cv-00580-L30-JDP Document 80 Filed 08/19/19 Page 25 of 37

1

OF THE SAC that Is alleged to be anv one of these purported “clarity” violations. Instead,

2 Plaintiff objects that the R&R is itself conclusory, ambiguous, confusing, argumentative,
3 repetitive, incomprehensible and clearly irrelevant for failure to state any fact/cite to any part of
4 the SAC that evidences an alleged “clarity” violation.
5

Even where the R&R refers to the SAC, it is done in such conclusory generalities,

6 without specifics from the SAC, as to be objected to on each ground stated above; but also to be
7 entirely irrelevant for the assertions that any part of the allegations are “needlessly lengthy
i •

8

(emphasis added), overly confusing, unnecessarily repetitive and mostly irrelevant.” Plaintiff

9 has stated above how the overall length of the complaint was necessary: in order to
i

10

complete anv filing within the time provided; in particular, because Plaintiff made every effort

11

to address the five claims for amendment with good faith “clarity.” There is no allegation of or

12

citation to fact that any “allegation” within the document was “needlessly lengthy.” That is

13

something new for Plaintiff and objected to thereby. Accordingly, there are no such alleged

14 violations attributed to the SAC and the R&R has NOT given either this Plaintiff or the Court
15

notice of any such with particularity and frequency, with opportunity to cure, as to be actionable

16

for a dismissal.

17

r

Plaintiff objects to the contention that “the court is again unable to ascribe specific

18

conduct to particular defendants as required by 42 U.S.C. section 1983 due to the perplexing

19

manner in which the SAC is pleaded.” This objected to generality, without citation to anything

20

specific in the SAC, is not correct. The specific conduct with names in bold as to each actor and

21

his/her wrong, is stated for each claim/cause pled as amended in the SAC. Again, it appears the

22

SAC was NOT READ!

23

Whether a “manner” of pleading is “perplexing” has more to do with the mind set of the

24

rpaHpr pnA his/her expectations for a prisoner complaint” and/or perhaps, even whether or not

25

the individual is willing to actually read the complete SAC; than whether or not it is inherently

26 unable to be understood for the purpose intended by a reasonable reader/defendant. Defendants
27

would likely have no preconceived “mind set” as to what a “prisoner complaint” should entail.

28

After all, there is no MANDATORY pleading “form” imposed by statute, only what should be
25

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 26 of 37
1
2

There is no contention by the Magistrate Judge that any one of the usual content is

3

missing in Plaintiff’s SAC; e.g. jurisdiction/venue, defendants, facts et al. Thus, it would appear

4

to be improper for a specific mandatory “form” of pleading to be assumed by the Magistrate

5

Judge, upon which a dismissal may be based, as appears to be the objected to position of the

6

Magistrate Judge in this case. After all, well regarded established practice/form manuals used by

7

attorneys contain MULTIPLE forms for even the same cause of action. Plaintiff has careful

8

reviewed these successful forms of pleading and incorporated some into the SAC, where relevant

9

to the claim/cause stated.

10

•

included therein.

Clearly, again, Plaintiff must object that there is no reference to the SAC in support of

11

the R&R’s overly broad general assertions pertaining to the SAC and its objected to alleged

12

failure to state a claim. And there is no reference or citation on the merits of any cause for the

13

alleged failure to state a claim. Further, an analysis under Section 1983, does not apply as

14

alleged for each claim; in particular, where as here, Plaintiff is proceeding under the American’s

15

With Disability Act, per reversal of error re original complaint screening order, an objected

16

to error also objected to as erroneously repeated in the R&R. Plaintiff has properly relied

17

on said reversal ofjudicial error and the “permission” to proceed against the State defendants as

18

specifically set forth in the order correcting the error.

19

Further, the citation to Lacey v Maricopa Cty. 693 F3d 896 (9th Cir 2012) re application

20

of section 1983 to Plaintiffs SAC is objected to as wrong; generally, where the ADA is

21

applicable and is specifically in error re reference to a “causation” requirement under section

22

1983 erroneously inferring no liability extending to “those state officials who subject, or cause to

23

be subjected, an individual to a deprivation of his federal rights;” where there is no immunity

24

under the ADA. There is no fault against Plaintiff for following the law and what the original

25

screening order correction allowed. Again, an R&R application of a previously reversed error,

26

where the SAC runs to these defendants as not dismissed and are allowed under the ADA per

27

prior screening order is error. Reliance on reversal of a prior court error is not ground for

28

dismissal.
26

I

’

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 27 of 37
1

Plaintiff strongly objects to the implication that there is some unidentified defect that

2

makes it “difficult” for the court and/or perhaps a newly appointed staff member to “decipher”

3

the “nature of the allegations” against the defendants; where the nature of the SAC is clearly set

4

forth on the cover page of the original complaint as one under the ADA and the original

5

screening order even corrects it own mistaken application of 42 U.S.C. 1983, to make it clear that

6

the Plaintiff is proceeding under the ADA where the State defendants are NOT

7 U DISMISSED as liability runs to the defendant State actors under the ADA. Objection is
8 H proper where, as here, the Magistrate Judge goes back to pre-correction screening orders
9
10
11

and use the judicial error to find fault with pleadings drafted bv Plaintiff tn he compliant
with the ADA, is wrong. Dismissal is NOT warranted.
There is no citation in the R&R to any part of the SAC alleged to be applicable on the

12

objected to contention that it is not possible or would even be “difficult” for any reasonable

13

defendant to “decipher/understand;” if they chose to actually read the SAC and follow its citation

14

to facts and law in support. Clearly nothing has been cited that is unintelligible and/or can’t be

15

amended to further clarify for even the least educated defendant. The R&R fails to identify

16

anything in the SAC that is perplexing or meets sufficient grounds for dismissal. Defendants will

17

more likely than hot be represented by learned counsel, who is familiar with many versions of an

18

attorney form complaint; including forms of pleading deemed appropriate to the SAC, as

19

incorporated by Plaintiff, for each of the causes of action, forms also referenced from expert’s

20

articles and internet cites putting forth acceptable forms ofpleading, which should be easily

21

recognized. Plaintiff objects to any inference of and/or requirement that she use a pre-printed

22

pleading form provided by the court and to any dismissal based on failure to use such a limiting

23

pre-printed form. Lawyers rarely use the pre-printed forms. Attorneys know that not all

24

“prisoners complaints” need be put on “forms” provided by the court, which appear to limit

25

causes to what is stated on the form; in particular, to 42 U.S.C 1983, a form which is easily

26

subject to a “canned” screening order for dismissal; apparently, on any and all grounds; which

27

should not be applicable here under the ADA.

28

Creativity in placing a complaint in the best light for the facts and law presented is proper
27

.

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 28 of 37

1

and is not a ground for dismissal. It is also not a ground for dismissal that a person with

2

disability must address a complaint in such manner as time provided allows and is precipitated by

3

his/her medical limitation needs; although such may properly be a ground for appointment of
4 counsel.

i

5

There is no fact or authority that is presented in the R&R that makes a showing that the

6

SAC fails to state a cause of action on the facts and law presented therein. The apparent “form

7

over substance” approach taken by the Magistrate Judge; ignoring any fact or law on the

8

“substance/merit” is inherently wrong. A dismissal is not warranted where, as here, the SAC

9

shows substantial merit re facts and causes presented by Plaintiff.

10

b. Leave to amend should be granted. There is no contention in the R&R that

11

Plaintiff with or without assistance of counsel and with time appropriate to the task and

12

Plaintiff's medical limitations, cannot amend to meet reasonable expectations of the court re

13

length and/or organization of the pleading; hopefully without creating a loss of operative facts

14 presented for each claim/cause. The feet presentation does constitute most of pages in the SAC.
15

The argument in the R&R that leave to amend should not be granted is objected to on a

16 number of grounds herein; in particular, because the argument shows a strong appearance of bias
17

and intent to prejudice arising out of what is reasonable to conclude is extrajudicial sources

18 and/or dictate from a source that has determined that Plaintiffs with disability should be put out
19 of court by any means possible and/or that this Plaintiff by reason of “stigma,” is not wanted or
20

“deserving.” In any event, such would be a manifest injustice and should shock the conscience

21

of any distinguished, respectful judicial officer performing under the court's Code of Ethics.

22

The apparent implied “personal” attacks in the R&R without regard to the merit of the

23

facts and causes in the SAC are painful for Plaintiff to read; in particular, where some of the

24

injuries inflicted at CCWF contribute to apparent inability to fully meet the requirements of this

25

court in presenting her claims; e.g. multiple head trauma, assault/battery, broken nose, life

26 threatening many hours long nose bleeds, shoulder injury requiring surgery, multiple instances of
27

brutal assault and battery pain and injury, “frozen” extremities and emotional injury; and the

28 unconscionable “dp not believe” attitude re failure to accommodate, where M.S, with Plaintiff
28

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 29 of 37

1

having all the symptoms; was not diagnosed or accommodated inflicting multiple fall injuries

2 with severe pain from unconscionable requirement to use a “walker” she could not break/stop
3 with her crippled painful hands or walk behind without falling; rather than being given the
4 physician prescribed wheelchair, required by law to be provided by defendants, a wheelchair
5 unlawfully denied to Plaintiff.
6

How can there be no claim here; in particular, when Plaintiff clearly gave notice of her

7 ADA needs and was ignored inflicting actual physical and emotional injury. How can there be
i

8 no claim here where her complaints resulted in more harm from false retaliatory disciplinary
9 | charges which inflicted restrictions preventing access to the court regarding her wrongful
10 incarceration and defense of constitutional real and personal property interests? Here, justice
11

requires and the merit of the causes warrant leave to amend; not the “form” dismissal with

12 prejudice urged by the R&R in contravention of meritorious claims and constitutional rights.
13

The R&R lists grounds upon which a court may decline to allow amendment. There is

14

insufficient fact and law to support a denial of leave to amend in this case; in particular, where

15

there is a complete disregard of any fact from the SAC on the merit of any cause therein.

16

Because of the continuing negative progression of Plaintiffs limitations of disability:

17 appointment of counsel is urged for assistance in meeting anv court requirements found
18 wanting bv Plaintiffs efforts.
19

In a prior order denying the amount of time extension sought by Plaintiff (Doc. 60), the

20 Magistrate Judge stated that the court had: “already providedplaintiffwith sufficient time to
21

accommodate her medical conditions;” and then without regard to verified medical necessity for

22

additional time, blames Plaintiff for delay. This is medically incorrect and just plain wrong.

23

Plaintiff’s principle disabling “medical condition” is NOT one that can be “cured” by time or any

24 other treatment. The effects from said “medical condition” are going to be present even with a
25

good cause time extension to accommodate limitations of physical function: but it is the

26

limitation re brain function that will not chance, that Plaintiff fears is misunderstood by the court

27

and may be the basis for the painful “personal attacks” against Plaintiff in the R&R; attacks not

28

on the merit of her claims; but by reason of effects of disability, for which liberal construction of
29

Case l:14-cv-00580-UO-JDP Document 80 Filed 08/19/19 Page 30 of 37
1

the pleadings would be appropriate and the law allows. Without sufficient time accommodation,

2

there is no hope that any portion of that time can be used effectively by Plaintiff to function well

3

enough to accomplish tasks requiring Plaintiff to meet court time constraints to avoid prejudice

4

from the time denial. Plaintiff has come to the painful realization that the inherent effects of the

5 progressive brain disorder may not allow her to fully meet the court’s expectation; but may be
6 manipulated to inflict further prejudice from being penalized by false inferences regarding the
7

8

merit of her claims.
Although Plaintiff previously sought appointment of counsel to assist with the FAC, it

9 was denied in error by reason that the court was wrong in assuming the case was limited to one
10

under 42 U.S.C. 1983, where appointment of counsel was alleged not to be available under said

11

statute. The denial was without prejudice. Appointment of counsel is available under the ADA.

12

Plaintiff presented the mandated renewal application in hopes that counsel can assist to ensure

13

that her civil rights are administered in the best form possible to be of assistance to the Court

14

without prejudice arising from her limitations of disability; as appears to be happening in the

15

R&R. Plaintiff did not expect and objects to the Order denying the request to appoint counsel as

16

precipitating denial of leave to amend and dismissal with prejudice. Appointment is appropriate

17

in this case.

18

Plaintiff objects to the argument in the R&R, that Plaintiff has “repeatedly and willfully

19 refused to cure pleading deficiencies identified by the court.” This is manifestly not correct as
20 verified by medical verification in the REQUEST FOR JUDICIAL NOTICE (Doc 73). Plaintiff
21

“willfully” wants to “cure” any prejudicial pleading defect; but may not be medically capable of

22 doing so within specified time constraints; and could not even try to successfully “cure,” where
23 there is a failure of the R&R to identify what alleged deficiency in the SAC Plaintiff has
24

‘willfully * failed to cure; in particular, on the merit of any claim/cause - where no such is even

25 mentioned. The generality is objected to as just too vague and ambiguous to support a denial of
26 leave to amend recommendation and dismissal with prejudice. Many Plaintiffs with and without
27 counsel are given at least three opportunities to amend and many are allowed even more.
28 Plaintiff is currently without counsel and is struggling to produce any document within the time
30

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 31 of 37
1

allowed and does need attorney assistance to overcome limitations from her medical conditions.

2

(Please see Doc. 73 and other Medical Verification in Support of time extensions,

3

Appointment of Counsel and Objections here; filed under seal.) Accordingly, Plaintiff has

4 not “willfully refused” to comply with lawful instruction of the court.

i

i

i

*

5

Plaintiff has at all times believed that she has in feet complied in good faith to the best of

6

ler ability as necessity mandated with expectations of the court within the time provided. As set

7

: brth above in reference to correcting the original complaint drafted under extremely difficult

8

circumstances; Plaintiff has included the requested paragraph numbers, separate causes and other

9

drafting instructions in the FAC. The Magistrate Judge however, alleges a failure of meeting the

10

“pleading standard” without specification of how there was such a “failure;” and instead, harkens

11

back in a vague and ambiguous manner to the “original complaint;” contending that the problems

12

with the original, were not corrected and then “bootstraps” the erroneous contention as allegedly

13

applicable also to the FAC and SAC. This is wrong. As stated above and more fully in response

14

to each complaint addressed above, Plaintiff acted to the best of her ability to conform the FAC

15

mmplaint hr appropriate: in particular, in light of the judicial error correction to allow ADA

16

Ktgfr ^pfpnHnntg plaintiff should not be prejudiced bv a false contention that she “refused” to

17

comply \r\ failing to amend in conformity with judicial error.

18

It is of note that the R&R does NOT state how the amended complaints actuallv_did

19 comply with instructions to the best nf Plaintiffs ability and good cause for form of FAC and
20 SAC submitted in the time allowed without assistance of counsel. The general suggestion that
21

there was a mere repeat of the original complaint is objected to as false and misleading. Plaintiff

22 addressed the actual corrections made and the alleged instruction to “be brief* and what should
23

be attempted as to length, in the specific complaint discussion sections above. There is neither

24 sufficient cause to dismiss for failure to state a claim or to deny leave to amend. There is good
25 cause to grant leave to amend and to appoint counsel to ensure that this case with meritorious
26 claims/causes can proceed in such fashion as to have a fair opportunity with able-bodied
27 plaintiffs to achieve a favorable result.
28

Plaintiff has addressed the issues with regard to the FAC in its discussion section above

31

I

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 32 of 37
1

and objects to the characterization of having “refused” to comply; in particular, where the five

2

claims were the focus of the FAC; where in good faith belief, they were properly amended to

3

state a claim. It is notable that the Magistrate Judge failed to find any fault as to the five

4

amended claims as pled in the SAC. There is no citation to any part of the SAC. There is no fact

5

or authority alleging that any of the five causes as pled in the SAC contained any alleged error

6 and/or failure to comply with the screening order or otherwise failed to state a claim/cause.
7

Thereby, there is no fact or authority that is noticed of any defect in said causes as presented in

8

the SAC. Leave to amend is appropriate. Dismissal is not. As set forth above, amendment to

9 the extent possible within the ability of Plaintiff was effectuated as to the SAC and as set forth
10 above, it is capable of and Plaintiff is willing to make further amendment to the document as
11
12
13

may be of best assistance to the Court

*

The R&R is strongly objected to - again, where the Magistrate Judge repeatedly attempts
to find fault with Plaintiff for COMPLIANCE WITH A PRIOR COURT ORDER which allowed

14 her to proceed against defendants that were dismissed in error and order issued reversing
15 dismissal of State defendants under the ADA. (See discussion above under original complaint.)
16 Plaintiff is informed and believes that ‘Vacated,” or ‘Void”orders have no compliance
17 requirement The erroneous attempt to find fault with Plaintiff by making the false statement that
18 she has “repeatedly failed to omit entity defendants and official capacity claims from her
19 amended complaints despite these defendants having been dismissed from the case,” is not only
20 wrong; but raises the question as to why a learned judge would repeatedly ignore a prior court
21

order vacating this alleged requirement; thereby also raising the issue of whether or not the

22 Magistrate Judge and/or his assistant is acting on discriminatory bias and hostility agamst
23 persons with disabilities or just against the “stigmatized” Plaintiff in instant case; perhaps, under
24 direction of other judicial officers and/or influence from extrajudicial sources to issue false and
25 fniglp^Hing basis for recommendations to prejudice Plaintiff in proceedings before the District
26 Court Here too, there is good cause for appointment of counsel to avoid the impact of
27 extrajudicial sources and/or inherent bias and hostility toward persons with disability acting pro
28! se within the judicial system.
32

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 33 of 37

1

The objected to omissions of fact and authority in the R&R work against the

2

argument/recommendation that leave to amend should be denied and dismissal with prejudice

3

issue. There is no authority cited for this false inference re lack of merit. The mistaken argument

4

re failings; failings that do not actually exist, where Plaintiff has substantially complied with

5

court orders; in particular, court orders and facts the Magistrate Judge ignores, work against the

6

argument/recommendation that leave to amend should be denied. Disregard of fact re good

7

cause for extensions of time, disregard of and error of law with disregard of legal standard used

8

to determine merit in contravention of dismissal, not determining with analysis the facts and

9 harm inflicted for sustaining a cause of action, disregard of the merits for each cause as amended
10 in the SAC, disregard of citation of feet and law related to the SAC showing cognizable causes of
11

action; as well as, disregarding the actual court order reversing dismissal of State defendants and

12 disregarding facts of medical limitations/illness warrant good cause to sustain claims/causes and
13
14

grant leave to amend and to reject dismissal.
c. Dismissal should Not be granted. The Magistrate Judge erroneously

15

recommends that the case be dismissed for alleged failure to prosecute and failure to comply with

16

a court order under Fed.R. Civ. P. 41(b); to questionably, effectuate a dismissal on the merits

17 unless the court orders otherwise. Plaintiff is without notice as to feet and authority for alleged
18

“failure to prosecute,” where the case is remains in the screening stage pursuant to court process

19

and it is impossible for the Plaintiff to proceed where the court has not opened the door for

20

“prosecution” of her case. The proceedings have been dictated by the court and any alleged delay

21

in addressing same is necessary for good cause shown in requests for extension of time; e.g.

22

accommodation re unanticipated circumstances, surgery, trial and effects of disability. Further,

23

there is no showing of prejudice/actual prejudice to the defendants. The defendants have been

24

continuously on notice of the facts and claims against them through administrative procedures

25

and State tort claims; as well as, the substantial fact detail set forth in the complaints filed in this

26

Court; pages of facts it appears, the court appears to find “unnecessary,” even though there is

27

enough said to avoid prejudice; thereby, such may be deemed actually necessary to fully state the

28

claims and each instance of abuse constituting the claim as to each defendant as requested upon
33

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 34 of 37

1
2

amendment by the court as shown in the SAC.
As stated above, the alleged failure to comply with court order is tainted by substantial

3

prejudicial error re mistaken and/or intentional erroneous reliance on an order re dismissal of

4

State defendants; an order, that was reversed. The Magistrate Judge’s repeated reliance on the

5

erroneous order while ignoring its reversal for the principal contention of "failure to comply.” is

6

wrong and such error should not support dismissal.

7

The R&R identifies without specific facts in support, factors for determining whether to

8

dismiss for failure to prosecute or failure to comply with a court order; but only addresses those

9

factors that can be misstated and/or exaggerated for reliance on error (reversed court order)

10

and/or on erroneous abusive “attacks” on Plaintiff and not those that work against the

11

recommendation; e.g. availability of less drastic alternatives and public policy favoring

12

disposition of cases on their merits; as well as, effects of disability. The selective negative

13

approach in the R&R appears to show that said purveyor of the prejudicial recommendations

14

cannot be fair and impartial; in particular, where it appears the Magistrate Judge himself, has

15

NOT ACTUALLY READ most, if any, of the SAC or the good cause medical evidence (sealed

16

and otherwise) presented for extensions of time and/or where he is unwilling to accept the truth

17

thereof; even where other more experienced judicial officers have not acted with such hostility

18

and discriminatory bias. Accordingly, there is an appearance of something else at play here.

19

The Magistrate Judge alleges “long delays” between screening orders and blames

20

Plaintiffs requests for extensions of time of approximately two years for the delay; without

21

addressing any factor of good cause for any one or more of the requested extensions. The court

22

granted the extensions for good cause shown; and thus, there is NOT cause for dismissal thereby.

23

Alleging otherwise is objected to as blatant disability discrimination, indicia of hostile bias

24

and/or cruel disregard of the law which allows “illness” as a defense to dismissal erroneously

25

recommended by the Magistrate Judge. See Scarver v Allen (7th Cir. 1972) 457 F2d 308,310-

26 311. Thus, there is nothing “unusual,” “unnecessary,” or “excessive,” about delay found
27

acceptable for good cause by the court. If the court cannot accommodate a party with

28

disability who requires more time to provide a full, complete, competent and meaningful
34

1

*

1

Efegppqg? to court processes such as to accomplish same in a fashion with equal opportunity

2

to achieve a favorable result with able-bodics parties/attornevs and/or will not accept the

3

limitations brought about by disability for a party making compliance impossible thereby:

4

then it should favorably consider appointment of counsel, not dismissal.

5
*

Case 1:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 35 of 37

Of course, patience with granting time as required for accommodation to provide for

6

completion of a good faith effort with liberal evaluation regarding a less perfect result, is also

7

available; as even the most stigmatized of citizens is entitled to due process. Plaintiff is a person

8

with disability as is clearly set forth in the SAC and sealed verifications of medical necessity;

9 which disability has already been the cause of substantial false and defamatory representations,
10 physical and emotional harm and misunderstanding. Examples of such are clearly as set forth in
11

the SAC. It is to the courts that citizens must turn for redress of grievances with implied fair and

12

equal justice for all; and if it cannot be patiently found in that forum - for the most vulnerable -

13

then the courts do not fulfill their constitutional promise and our democracy is in real trouble.

14

Plaintiff strongly objects to the R&R mis-characterization that Plaintiff has been willful,

15

‘‘refused to comply,”“chosen to ignore the court’s screening orders” and “has not even shown a

16 minimal willingness to follow the court’s instruction.” This characterization is not only wrong
17 and indicia of bias on the facts and authority set forth above; but because Plaintiff has at all times
18

acted in good faith to meet requirements of the court within the diminishing capacity brought

19

about by her progressive illness for which there is no effective treatment or reversal. Thus, any

20

failings are inadvertent and neither willful nor without good cause. (Please see all medical

21

exhibits set for in filings under seal.)

22
i

Plaintiff objects to dismissal as stated above and most particularly objects to the

23

recommendation that a dismissal with prejudice issue; because the remarkably harsh

24

discriminatory recommendation is NOT a first choice “sanction,” is NOT based on fact, is NOT

25

based on actual prejudice, is NOT based on citation to fact or law showing a lack of merit re any

26 claim/cause in the SAC or any other actually identified just or substantial cause; but because as
27

28

the Magistrate Judge questionably put it:
“However, ifthe court dismissed without prejudice, the court might
35

I

I

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 36 of 37
1

again be in the same situation it finds itselfin now if plaintiffrefiled her case. ”

2

The above objected to discriminatory statement showing extraordinary bias, belies all

3

contentions upon which the previously objected to recommendations in the R&R are based. The

4 objected to recommendations for dismissal without leave to amend re erroneously alleged failure
5
\

to state a claim, failure to cure deficiencies by amendments previously allowed, failure to comply

6 with court orders and failure to prosecute, are specious and should be rejected.
7

THE REAL REASON FOR THE OBJECTED TO RECOMMENDA TIONS:

8 APPEARS TO BE. THAT THE COURT WANTS TO KEEP PRO SEPLAINTIFF’S WITH
9 DISABILITY OUT OF COURT, without regard to the merit oftheir claims/causesl And
10

apparently, even with an attorney: who could file a third amended complaint Thisappears to

11

be a due process violation showing hostility and bias sufficient on the above statement alone

12

for recusal by the Magistrate Judge under the Court*s Code ofEthics and a showing of

13

extraordinary circumstances to vacate the referral and to reject the recommendations.

14

There appears to be no question that the Magistrate Judge cannot be fair and impartial

15

where this disabled plaintiff is concerned; in particular, where there appears to have been no

16

consideration of the documentation under seal in support of good cause for extensions of time,

17

medical necessity for appointment of counsel or otherwise in contravention of assertions made

18

upon which dismissal is erroneously recommended; where there is improper reliance on an

19

erroneous/vacated court order, there is no consideration of fact or law on the merits of the

20

claims/causes in the SAC and where even appointment of counsel may have no effect on a

21

“prescription” to deny persons with disability access to the U.S. District Court for redress of

22

grievances.

23

Clearly, the questionable approach by the Magistrate Judge in this action with omission

24

of operative fact and law to deny substantial procedural and substantive rights to Plaintiff is too

25

harsh, evasive and discriminatory, to withstand scrutiny, showing that the referral should be

26

vacated and recommendations rejected.

27
1

28
36

Case l:14-cv-00580-LJO-JDP Document 80 Filed 08/19/19 Page 37 of 37

1

Conclusion

2
3

For the reasons outlined above, and as required by 28 U.S.C. section 636(b)(l)( C) and

4

Rule 72.3(b) of the Rules of this Court, Plaintiff objects to the Magistrate Judge’s Report and

5

Recommendations.

6

The Court should decline to adopt the R&R. Instead, it should grant leave to amend and

7

appoint counsel to assist in meeting the Court’s requirements.

8

Dated: August 15,2019

Respectfully submitted,

9
10
11

s
PA7RTC

Plaintiff

12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28
37

CCOLM

Case l:14-cv-00580-LJO-JDP Document 74 Filed 06/12/19 Page 1 of 2
l
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM,

12

Plaintiff,

13
14
15

Case No. l:14-cv-00580-LJO-JDP
ORDER DENYING RENEWED MOTION TO
APPOINT COUNSEL

v.

ECFNo.73

STATE OF CALIFORNIA, et al.,
Defendants.

16
17
18

Plaintiff Patricia A. McColm is a former state prisoner proceeding without counsel in this

19

civil rights action under 42 U.S.C. § 1983, the Americans with Disabilities Act (“ADA”), and

20

§ 504 of the Rehabilitation Act (“RA”). On October 11, 2018, the court issued an order

21

permitting plaintiff to file a renewed motion for recruitment of counsel. ECF No. 71. We

22

explained that if recruitment of counsel was warranted, we would grant leave to file an amended

23

complaint with the assistance of counsel. Id. at 10. If we found that appointment was not

24

warranted, we explained that we would recommend dismissal of this case. Id.

25

Plaintiff filed a renewed motion for appointment of counsel on November 15, 2018. ECF

26

No. 72. Plaintiff does not have a constitutional right to appointed counsel in this action, Rand v.

27

Rowland, 113 F.3d 1520, 1525 (9th Cir. 1997), and the court cannot require that an attorney

28
1
APPENDIX F

Case l:14-cv-00580-LJO-JDP Document 74 Filed 06/12/19 Page 2 of 2

1

represent plaintiff under 28 U.S.C. § 1915(e)(1), seeMallardv. United States District Courtfor

2

the Southern District ofIowa, 490 U.S. 296, 298 (1989). However, in certain exceptional

3

circumstances the court may request the voluntary assistance of counsel under § 1915(e)(1).

4

Rand, 113 F.3d at 1525.

i

5

Without a reasonable method of securing and compensating counsel, the court will seek

i

i

*

6

volunteer counsel only in the most serious and exceptional cases. In determining whether

7

exceptional circumstances exist, "a district court must evaluate both the likelihood of success on

8

the merits [and] the ability of the plaintiff to articulate his claims pro se in light of the complexity

9

of the legal issues involved.” Id. (internal quotation marks and citations omitted).

10

Here, we do not find the requisite exceptional circumstances to appoint volunteer counsel.

11

First, we cannot find that there is any likelihood of success on the merits. None of plaintiffs

12

complaints have survived § 1915A screening, ECF Nos. 13 & 47, and plaintiffs latest complaint

13

tracks the same content of a previous complaint that failed to state a claim, see ECF No. 63.

14

Second, though we acknowledge plaintiffs disabilities, ECF No. 63 at 6, we do not find that

15

plaintiff is inarticulate. Indeed, plaintiffs intelligence is apparent in her filings before this court.

16

ORDER

17

Accordingly, plaintiffs renewed motion for the appointment of counsel, ECF No. 72, is

18

denied. Because we find that appointment of counsel is not warranted, we will recommend

19

dismissal of this case in a separate order.

20
i

21
i

IT IS SO ORDERED.

22

Dated:
23

June 11. 2019
UNFM) STATE^MAGISTRATE JUDGE

24

25
26

No. 203

27

28
2

3

PATRICIA A. MCCOLM
PO Box 113
Lewiston, CA 96052
(415)333-8000
Fax by Appointment

4

Plaintiff, in pro se

1
2

ORIGINAL
FILED
sep

I

CLERK. U.S. DISTRICT COURT
EASTEflUlDiSTRICT OF CALIFORNIA
w

5
i

inm

OEFUfvetfcftK

6

i

7

8
9

IN THE UNITED STATES DISTRICT COURT

10

FOR THE NORTHERN DISTRICT OF CALIFORNIA

11
12

PATRICIA A. MCCOLM

NO.

1:14-CV-005 80-LLO-JDP

13
/'—N 14

NOTICE OF APPEAL TO THE
UNITED STATES COURT OF
APPEAL, NINTH CIRCUIT; REQUEST
FOR APPOINTMENT OF COUNSEL RE
PERMISSION & APPEAL

Plaintiff,

15
16
17

vs.

18
19
20

TRINITY COUNTY etal.
Defendants.

21
22

Notice is hereby given that PATRICIA A. MCCOLM, the plaintiff in the above named

23

case, PROCEEDING IN FORMA PAUPERIS GRANTED IN THE DISTRICT COURT;

24

hereby appeals to the United States Court of Appeal for the Ninth Circuit requesting

25

appointment of counsel for good cause re limitations of disability and impending surgery to

26

assist with both the process for permission to proceed on appeal and the appeal from:

27
APPENDIX fi
28

1

*

1

1) The JUDGMENT IN A CIVIL CASE (ECF 82) entered in this action on the 11th

2

day of September 2019; [The misleading “form” Judgment erroneously states: “This action

3

came to trial or hearing before the Court. The issues have been tried or heard and a decision has

4 been rendered.” There was neither a trial nor hearing. The Judgement further states that: “IT IS
5

ORDERED AND ADJUDGED THAT JUDGMENT IS HEREBY ENTERED IN

6

ACCORDANCE WITH THE COURT’S ORDER FILED ON 9/11/2019.”] A true and correct

7

copy of the Judgement being appealed in this case is attached hereto as EXHIBIT 1.

8
9

2) The ORDER (ECF No. 81) entered in this action on the 11th day of September,

10

2019; stating: “1. The findings and recommendations issued by the magistrate Judge on June 12,

11

2019 (ECF No. 75), are ADOPTED IN FULL; and 2. The case is dismisses with prejudice.” A

12

true and correct copy of the ORDER entered 9/11/19 being appealed in this case is attached

13

hereto as EXHIBIT 2.

14
15

3) The magistrate judge’s FINDINGS AND RECOMMENDATIONS (ECF 75) entered

16

in this action on the 12th day of June, 2019 [recommending that the Second Amended

17

Complaint be “dismissedforfailure to state a c/a/m”and “with prejudice” for alleged failure to

18

comply with court orders /failure to prosecute, without regard to the facts or merit of any cause

19

therein or substantial limitations of disability found by physician statements under seal to be not

20

willful but by reason of disability recommending appointment of counsel.] A true and correct

21

copy of the FINDINGS AND RECOMMENDATIONS being appealed in this case is attached

22

hereto as EXHIBIT 3(ECF 75) with OBJECTIONS TO MAGISTRATE JUDGE’S

23

FINDINGS AND RECOMMENDATIONS et al appended thereto as EXHIBIT 3A therein

24

requesting JUDICIAL NOTICE OF MEDICAL EXHIBITS UNDER SEAL throughout case

25

showing medical necessity for appointment of counsel.

26
27
28

2

1

4) The ORDER DENYING RENEWED MOTION TO APPOINT COUNSEL (ECF

2

73) by Magistrate Judge, a true and correct copy attached hereto as EXHIBIT 4 stating therein:

3

“Because we find that appointment of counsel is not warranted. we will recommend dismissal

4

of this case in a separate order. ” (ECF 75). The appealed Order is from Plaintiffs RENEWED

5

APPLICATION FOR APPOINTMENT OF COUNSEL; DECLARATION OF PATRICIA A.

6

MCCOLM AND OBJECTIONS TO MAGISTRATE JUDGE’S ORDER; MEMORANDUM,

7

REQUEST FOR JUDICIAL NOTICE FILED SEPARATELY (ECF 72), a true and correct copy

8

attached as EXHIBIT 4A and REQUEST FOR JUDICIAL NOTICE in support, attached as

9

EXHIBIT 4B.

10
11

5) The ORDER ADOPTING FINDINGS AND RECOMMENDATIONS TO DENY

12

PLAINTIFF’S MOTION SEEKING RELIEF FROM, OR ALTERATIONS TO, THE

13

JUDGMENT (ECF 88) entered July 20, 2020 attached hereto as EXHIBIT 5, issued by a new

14

and differentjudge, essentially relying on prior objected to judicial error, much of which had

15

been corrected (See ECF 19 attached hereto as EXHIBIT 5A); but which was repeatedly ignored

16

in subsequent findings/recommendations and Orders and in disregard to medical necessity,

17

medical justification and good cause for appointment of counsel.

18
19

6) The magistrate judge’s FINDINGS AND RECOMMENDATIONS (ECF 85)

20

entered January 17,2020 recommending that the “MOTION SEEKING RELIEF FROM, OR

21

ALTERATIONS TO, THE JUDGMENT BE DENIED;” a true and correct copy of which is

22

attached hereto as EXHIBIT 6 with MOTION TO ALTER OR AMEND ORDER OF

23

DISMISSAL AND FOR RELIEF FROM JUDGMENT DISMISSING ACTION et al (ECF 83)

24

entered October 8, 2019 appended thereto as EXHIBIT 6A and OBJECTIONS TO

25

MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATIONS THAT THE MOTION

26

SEEKING RELIEF FROM OR ALTERATIONS TO, THE JUDGEMENT BE DENIED WITH

27
28

3

1

EXHIBIT A; REQUEST FOR JUDICIAL NOTICE (ECF 87) appended hereto as EXHIBIT 6B.

2
3

7) The ORDER entered February 22,2020 (ECF 53) “ ORDER ADOPTING

4

FINDINGS AND RECOMMENDATIONS TO: DISMISS et al, a true and correct copy of which

5

is attached hereto as EXHIBIT 7.

6
7

8) The Magistrate Judge ORDER AND FINDINGS AND RECOMMENDATIONS (ECF

8

47) attached hereto as EXHIBIT 8 with (partial exhibits) and with appended OBJECTIONS TO

9

MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATIONS et al., EXHIBIT 8A.

10
11

9) The Dismissal Order (ECF 13) entered March 4, 2015, EXHIBIT 9, with MOTION

12

TO ALTER OR AMEND ORDER OF DISMISSAL et al (ECF 14) entered March 18, 2015

13

appended as EXHIBIT 9A and correction ORDER (ECF 19) entered March 20, 2015 (See

14

Exhibit 5A).

15
16

10) The first ORDER DENYING MOTION TO APPOINT COUNSEL (ECF 32) was

17

entered September 2,2016; a true and correct copy of which, is attached hereto as EXHIBIT 10

18

with Application for Appointment of Counsel for Good Cause (ECF 31) entered September

19

15,2016 appended thereto as EXHIBIT 10a.

20
21

11) Prejudicial Limitations re Accommodation of Disability re Requests for Extension of

22

Time and Appointment of Counsel; JUDICIAL NOTICE REQUESTED OF MEDICAL

23

GOOD CAUSE FILED UNDER SEAL (ECF 14-15/17-18, 24-25/27-30, 34-36/37-38, 47-51, 54-

24

55, 57-62, 65-66, 68-70, 76-79, 84-86, 89-90). Medically verified time delay needed to

25

accommodate limitations of disability in order to accomplish any written project required by the

26

court in such fashion as to have a fair opportunity with able bodied persons to achieve a

27
28

4

1

favorable result, was arbitrarily shortened; thereby, denying accommodation and inflicting

2

prejudice from inability to meet the limited time imposed and/or inflicting prejudice from need to

3

seek additional time in a good faith effort to meet the expectations of the court; where the deficits

4

of disability negatively impacted achieving such a result without appointment of counsel. Thus,

5

it appears that limitations of disability is the standard upon which leave to amend and denial of

6

access to the Court is based, absent appointment of counsel. Extensions of time granted for good

7

cause should not be a ground for dismissal with prejudice.

8
9
10

Copies of the Judgement and Orders being appealed are attached as Exhibits 1-10 hereto
and where not attached, included bv request for JUDICIAL NOTICE.

11
12

Plaintiff has not previously appealed the judgement and orders stated above or raised the

13

issues pertaining thereto in a prior appeal or petition on review by this Court. THIS NOTICE

14

OF APPEAL IS BEING FILED SUBJECT TO A NEAR 20 YEAR OLD PRE-FILING ORDER

15

IN 01-80189; which Order is being respectfully requested vacated in a separate application; to be

16

submitted hereafter when time and disability limitations and surgery allow; with showing of good

17

cause to vacate by passage of time and discovery of the previously undiagnosed medical

18

conditions which precipitated the older apparent ineffective filings; filings, which were a good

19

faith effort, designed to overcome the targeted “stigma,” the false and defamatory media

20

comment (“fake news”) plaintiff suffered as a person with disability; against which, defense was

21

medically prejudiced. Regrettably, medical limitations inflicted futile filings; a good faith effort,

22

plaintiff hoped would save home and reputation; such relief, essentially prevented by medical

23

impossibility from cognitive/physical decline re undiagnosed Hashimoto’s Disease, which

24

ultimately inflicted black-outs nearing myxedema coma.

25

There are years of medical and financial detriment/bankruptcy filings, trying to overcome

26

prejudice from disability arising from the missed diagnosis; regrettably, including those that have

27
28

5

1

only been discovered within the past several weeks. Plaintiff has neither been able to fully

2

recover from on-going effects of auto-immune Hashimoto’s Disease, nor the severely disabling

3

continuing painful effects from traumatic injuries in 2019-20; or even begin to recover, from the

4

overwhelming continuing prejudicial impact from the false and defamatory media comment and

5

“stigma” arising therefrom, that appears to wrongfully govern decisions made by others painful

6

to plaintiff, in all walks of life; decisions based on false assumptions from some 20 years ago;

7

which has further effectuated a denial of Constitutional remedy by reason of medical

8

impossibility; and which appears to have influenced the outcome in this case.

9

In addition, even the retired presiding judge of the Eastern District Court has publically

10

recognized that with the judge shortage, that the guillotine of prejudice is more likely than not to

11

fall on litigants. A due process violation? Does any court still care about Constitutional

12

protections providing a remedy, where time consuming persons with disability are involved? It

13

is not unreasonable to assume from the history of this case, that pro se plaintiffs with disability;

14

in particular, those that have been stigmatized as “vexatious” because of misunderstood disability

15

and/or through denial of appropriate accommodation thereof, are the most likely to be denied

16

access to the court to resolve grievances under the present circumstances. Thus, it appears such

17

individuals, like plaintiff, are subject to a preconceived opinion against merit exercised without

18

an actual reading of any claim or taking the time to understand / determine the good cause and

19

harm upon which the claim for relief is based. Must plaintiffs with disability suffer extreme

20

harm from defendants without a remedy? Where is that in the law or good conscience?

21

This 74 year old, coping with age related decline; as well as, a refusal to heal serious

22

painful swollen leg laceration injury and related newly diagnosed serious back injury requiring

23

urgent surgery to avoid likely paralysis; has also to cope with a second debilitating disability

24

from a second auto-immune diagnosis of Multiple Sclerosis; for which after FOUR YEARS of

25

extreme time required effort to enforce a California Administrative Law Judge order, a power

26

wheelchair has finally been provided by the MediCal insurer. It is likely M.S. was also not

27
28

6

1

diagnosed in the 1990s. Thus, there is progressive cognitive decline, continued interference with

2

ability to accomplish daily activities of life; as well as, impossible court expectations; in

3

particular, where sufficient time is not afforded for a good faith effort to overcome pain,

4

confusion, lack of concentration/focus, memory loss of instant recall, words and much past

5

learning, inability to be organized and focus being verbose and unable to “edit” effectively; all

6

indicative of the progressive disease with declining cognitive and physical functioning; with

7

inability to cope with the “shut-down” distress at being the subject of targeted abuse and

8

deprivation of civil rights as occurred in the action at hand.

9
10

Plaintiff prays for relief from stigma and the guillotine and a fair opportunity to prevail;
in particular, through appointment of counsel.

11

12

JUDICIAL NOTICE is respectfully requested of verification of medical conditions /

13

limitations of disability and recommendation for appointment of counsel: as set forth by

14

plaintiffs physicians under seal: in particular. medical statement ofMichelle L. Apperson.

15

M.D. PhD dated August 23. 2018. in this action showing that plaintiffs failings are not

16

“willful: ” but attendant to medical problems. The documents under seal give sufficient

17

showing to vacate dismissal and appoint counsel: as well as, recent additional statement of

18

acute diagnosis in support of application to appoint counsel for assistance with the herein

19

permission and appeal process: in particular. in light of recent back iniurv diagnosis and

20

recommended surgery to avoid potential for paralysis. Attached are two medical statements in

21

support of application for appointment of counsel as EXHIBITS 11 and EXHIBIT 12, that

22

will be with the application submitted directly to the Court ofAppeal, along with Form 24

23

showing additional good cause therein.

24
25

Instant case should have been allowed amendment and appointment of counsel.

26

Absent permission to appeal and determination of this case in the District Court; the prejudicial

27
28

7

1

knowing denial of constitutional and civil rights by State prison employees, more likely than not,

2

will continue; in violation of constitutional protections and statutory rights of persons with

3

disability; in particular, with a “green light” to allow unrestrained physical battery by other

4

prisoners and custodian officers alike. Plaintiffs suffering a broken nose and repeated

5

multiple injury from prisoner battery as set forth in the SAC: as well as. extreme pain and

6

falls suffered from failure to provide plaintiff with the physician prescribed wheelchair:

7

one fall which required shoulder surgery, should not be tolerated bv prison officials against

8

anv prisoner and such violation of law should not be condoned bv this Court for anv

9

procedural deficit alleged.

10

Elder persons with disability are the most vulnerable and should receive enhanced

11

protections; not denied the very accommodations and durable equipment required to avoid pain

12

from effects of disability; as occurred in this case and then made to suffer false disciplinary

13

charges and unlawfully denied legal mail to the Supreme Court of California in retaliation for her

14

complaints. For this plaintiff, a dismissal with prejudice is a COMPLETE DENIAL OF

15

CONSTITUTIONAL RIGHT OF ACCESS TO THE COURT TO RESOLVE GRIEVANCES;

16

merely, by reason of misunderstood time requirements to accomplish any written project in such

17

a manner as to have a fair and equal opportunity with able bodied persons to achieve a favorable

18

result and/or to not accommodated limitations of disability causing dismissal with prejudice

19

and/or by reason of bias from “stigma” related to this plaintiff with disability.

20

STATE PRISON EMPLOYEES ARE NOT IMMUNE FROM LIABILITY FOR

21

KNOWING VIOLATIONS OF A PERSON’S CONSTITUTIONAL RIGHTS as occurred in this

22

case. STATE ENTITIES INCLUDING PRISONS ARE NOT IMMUNE FROM LIABILITY

23

FOR VIOLATIONS OF THE ADA AS OCCURRED IN THIS CASE. Thus, to dismiss this

24

case with prejudice with implication that it is “frivolous” for wrongfully alleging failure to state a

25

cause of action or other questionable non-accommodating reason, is just plan wrong! It gives the

26

strong appearance that the magistrate judge and/or staffjust didn’t want to read a lengthy

27
28

8

1

complaint by a stigmatized plaintiff, is biased and unable to provide a fair and impartial

2

evaluation of the action and/or that the District Court is trying to reduce its case load by keeping

3

disabled plaintiffs out of court without regard to the merit of any cause of action.

4
5

The hard working legal assistant(s) need to help the Court by actually READING THE
SECOND AMENDED COMPLAINT in relation to attorney practice manuals it tracks meeting

6 the elements for each cause of action; as well as, the multiple pages of substantial FACT
7

supporting the causes of action; where defendants knowingly acted in concert per retaliatory

8

agreement to prejudice and cause physical pain/iniurv and emotional harm to plaintiff a

9

stigmatized person with disability! Intentional failure to provide physician prescribed

10 wheelchair with pusher to move same and avoid pain/injury, is blatant intentional discrimination
11

and retaliation actionable under the ADA; as well as, is officer and multiple prisoner battery with

12

injury including a broken nose. Retaliatory false disciplinary charges and denial of due process

13

at hearing for objecting to denial of access and accommodation is actionable; and even a

14 violation of U.S.C section 1983; where the citation showing such to be a violation in the prison
15

context, was apparently disregarded by the magistrate judge. The District Court’s primary

16

reliance on U.S.C. section 1983 to determine dismissal expecting amendments thereto without

17

regard to viability under the ADA is wrong; as is the repetitive error in using said statute to

18

prejudice plaintiff in contravention of the ADA; upon which she should prevail, on the same

19

facts as drafted in the SAC.

20

Appeal is proper to correct the magistrate judge in this case, who acted

21

against law from his erroneous belief that if counsel is not warranted, the case

22

will be dismissed. (See Exhibit 4, page 2, lines 18-19) Plaintiff has found NO

23

AUTHORITY and no such was cited bv the magistrate judge, that allows a District Court

24

to dismiss an action because counsel is not appointed. And to do so WITH PREJUDICE!

25

Such judicial conduct shows discriminatory bias against persons with disability to proceed pro se

26

and was good cause to withdraw the referral. The Second Amended Complaint fully states at

27

28

9

1

least one cause of action, which under 28 U.S.C. 1915 should not have been dismissed with

2

prejudice.

3
4

THIS COURTS NEEDS TO ENSURE THAT EFFECTS OF ILLNESS AND

5

LIMITATIONS OF PERMANENT AND ACUTE DISABILITY DO NOT BECOME THE

6

MEASURE OF DENYING ACCESS TO THE COURT AND DUE PROCESS IN THIS

7

COUNTRY; as occurred for plaintiff in this action. Plaintiffs physicians have stated that

8

the inability to meet court time and other expectations is not willful; but a problem related

9

to her medical condition and that counsel should be appointed (See Medical Statements

10

under Seal; in particular, that of Dr. Apperson dated 8/23/18 and the most recent

11

submission, Exhibit 12; in support of request for appointment of counsel on request for

12

permission and appeal). This Court needs to tell District Courts, that failure to appoint

13

counsel, is NOT a proper reason to dismiss an action with prejudice.

14
The statements of fact and law set forth above and as set forth in each of plaintiffs

15
16

objections and motions filed in this case; as well as, medical good cause set forth in documents

17 under seal are incorporated by reference into the Statement of Facts and Law on Appeal set forth
18

below:

19
20

STATEMENT OF FACTS AND LAW ON APPEAL

21
22

ABUSE OF DISCRETION / ERROR OF LAW: DENIAL OF LEAVE TO AMEND AND

23

DISMISSAL WITH PREJUDICE BASED ON UNFOUNDED FACTS/AUTHORITY RE

24

“FAILURE TO STATE A CLAIM" UNDER 28 U.S.C. SECTION 1915:

25

CONSTITUTIONAL VIOLATION / DENIAL OF ACCESS TO COURT / MANIFEST

26

INJUSTICE RE APPEARANCE OF DISCRIMINATORY BIAS AGAINST PRO SE

27

28

10

1

PLAINTIFFS WITH DISABILITY AND/OR VEXATIOUS LITIGANT “STIGMA” IN

2

CASE WITH MERITORIOUS FACTS/CAUSEfSl OF ACTION: AND. DENIAL OF

3

MOTION TO APPOINTMENT COUNSEL.

4
5

The SECOND AMENDED COMPLAINT (SAC) (ECF ) in this substantial in forma

6

pauperis ADA/civil rights action was denied leave to amend and DISMISSED WITH

7

PREJUDICE (ECF ) and Judgment (ECF ) entered thereon ,2019 for “FAILURE TO STATE

8

A CLAIM et al:” at the screening stage under 28 U.S.C. 1915; in what appears to be abuse of

9

discretion and error of law through prejudicial disregard of authority under said statute and in

10

contravention of substantial pages of FACT supported by available documentary evidence;

11

INCORPORATED INTO THE COMPLAINT as authorized by law, regarding each defendant

12

relating directly to each of the causes of action set forth in the SAC upon which the action is

13

based; which clearly show that the facts stated constitute good cause to amend and constitute at

14

least one cause of action that would work against a dismissal of the action; in particular, “with

15

prejudice.”

16

The facts within each cause of action identifies with particularity the defendant(s) to

17

which each applies. The facts and causes show acts by defendants in concert/agreement to

18

knowingly violate plaintiffs constitutional and civil rights in retaliation for plaintiffs protected

19

conduct; in particular, requests for accommodation of disability, the noticed right to use a

20

physician prescribed wheelchair with pusher, to be free from harm from custodial officers and

21

other prisoners and to file legal documents, subverted in this case.

22

A full and complete reading of the SAC tends to indicate that the magistrate judge

23

findings and recommendations are not based on actual fact and authority; but appear to be based

24

on ire related to plaintiffs request to vacate the referral (The District Judge failed to rule on the

25

request to vacate the referral.) and/or discriminatory bias against pro se plaintiffs with disability

26

and/or vexatious litigant “stigma” from over 20 years ago, related to this particular plaintiff with

27
28

11

1

an apparent agenda by the magistrate judge designed to keep said class of persons and/or plaintiff

2

out of the District Court; as would tend to be indicated by an apparent failure to actually read the

3

entire complaint and/or misconstruing “cherry-picked” sentences attributed to only one cause of

4

action, Section 1983, to questionably precipitate the dismissal without regard to contra authority

5

under the ADA. Even the causes under 1983 are not correctly identified on the facts and grounds

6

upon which the statute is applied. Remarkably, the magistrate judge makes reference to Section

7

1983 comments regarding the original complaint, which are not applicable to the SAC; in

8

particular, as the SAC clearly shows the reference is to only to Section 1983 for the “linkage”

9

argument without regard to the fact that the comments were essentially erroneous in other parts

10

by reason of failure to apply the law under the ADA. Thus, even the one claim out of which each

11

defendant arises is satisfied; in particular, as related to “series of transactions or occurrences” and

12

there is an ADA retaliation and constitutional “question of law or fact common to all

13

defendants.”

14

As set forth in the SAC under Jurisdiction, the SAC states: “Plaintiff brings this action

15

under the American’s with Disability Act, 42 U.S.C. section 12101 (Prohibition against

16

discrimination based on disability), 12203 (Prohibition against retaliation and coercion) et seq.

17

(“ADA”), Section 504 of the Rehabilitation Act of 1973, as amended, 29 U.S.C. section 794 for

18

discrimination based on plaintiffs disabilities; 42 U.S.C. section 1981 (Reverse

19

Discrimination), 42 U.S.C. section 1985 (Conspiracy to Interfere with Rights) 1988; 42 U.S.C.

20

section 1986 (Neglect to Prevent Interference with Rights); (42 U.S.C. 1983, deprivation of civil

21

rights, retaliatory infractions et al, conspiracy/denial of plaintiffs rights secured by the United

22

States Constitution under the First, Fourteenth, Eighth Amendments, civil conspiracy, denial of

23

access to the courts/destruction of legal mail/records, cruel punishment/failure to protect; and

24

related State claims including but not limited to causes for violation of Penal Code sections

25

2650-2652 (failure to protect, unauthorized punishment, lack of care inflicting injury/impair

26

health of prisoner), 2652/2656 (lack of care inflicting injury/deprivation of medically prescribed

27
28

12

t

1

orthopedic appliances), California Civil Code sections 51, 51.7, 52.1 (discrimination/interference

2

with exercise of civil rights) et al., Civil Conspiracy / Deprivation of Civil Rights, California

3

Code of Regulations Title XV violations, medical negligence, personal injury/premises liability,

4

personal injury/assault and battery, intentional/negligent injury/failure to protect from other

5

inmates (violent injury/physical abuse, verbal harassment/bullying), retaliatory intimidation/treats

6

to use “Ad Seg” to quelsh ADA complaints et al, sexual harassment/indecency, retaliatory

7

infractions, fraud, intentional/negligent infliction of emotional distress, personal injury/infliction

8

of sleep deprivation, intentional/negligent destruction/theft of personal property,

9

intentional/negligent destruction of documents/evidence, defamation, elder abuse,

10

intentional/negligent creation of false and defamatory documents, falsification/destruction of

11

medical records, failure to inspect/produce and correct per statute upon request, failure to

12

provide access to courts re failure to effectuate legal mail, interference with legal and U.S. Mails

13

et al.” Conspiracy touches all above stated causes.

14

Essentially, NONE of the above causes were actually subject to analysis by the magistrate

15

judge on the facts and authority related thereto and even the Section 1983 causes are not stated

16

correctly by the Magistrate Judge on the actual facts and causes to which the statute applies; as a

17

full reading of the SAC would show and raise a viable issue for adjudication such as cause of

18

Action re Conspiracy to Interfere with Rights with specified Constitutional violations and

19

retaliatory false charges & Fourth Amendment violations).

20

In instant appeal, the constitutional violations running to the merits of the civil rights

21

complaint in this case, are not in issue; the District Court having made no factual/legal

22

determination on the merits of anv claim therein. No specific defendant was identified or

23

stricken on ground of immunity. Under the ADA, defendants are arguably liable under the facts

24

of this case. No specific cause was identified or stricken as lacking arguable merit. Based on

25

attorney practice manuals and authorities expressing requirements re fact and law, plaintiff is

26

informed and believes that the facts and law support each of the claims stated. And if there is a

27
28

13

1

defect, that notice thereof from the Court with leave to amend should have been granted.
The denial of leave to amend and dismissal with prejudice appears to be more likely

2
3

based on bias and/or limitations of disability; than any alleged “failure to state a claim.” Ability

4

to conform to expectations of the court are more disability based than any willful failure to

5

comply as set forth in medical statements provided. Thus, appointment of counsel would appear

6

to have been appropriate throughout the process of the case to avoid a dismissal.
Although no specific finding was made that any cause or the entire complaint was

7
8

“frivolous,” a dismissal with prejudice gives that erroneous impression; which should not have

9

issued in instant case. It also wrongfully provides a court and/or defendant with unfounded cause

10

to obtain a further DISCRIMINATORY restraining order; an apparent constitutional violation

11

based on disability and/or “stigma.” There is no basis in fact or law to support a dismissal with

12

prejudice in this case.
Before a District Court may dismiss an in forma pauperis complaint with prejudice, the

13
14

District Court must find that the plaintiff has engaged in “conscious or intentional acts or

15

omissions.” Harris v Cuyler, C.A.3 (Pa.) 1981, 664 F2d 388. There are no such findings in

16

instant case. There is insufficient basis in fact or law to support a dismissal with prejudice in this

17

case.

18

Pro se complaints must be liberally construed and can be dismissed only if face of

19

complaint shows insuperable bar to relief. Holt v Caspari, C.A.8 (Mo.) 1992, 961 F2d 1370.

20

There is no showing of “insuperable bar to relief’ in this case. Is the U.S. District Court saying

21

that limitation of disability and time to overcome same is such an “insuperable bar to relief?” Or

22

is such a discriminatory due process or other Constitutional violation? There is no basis in fact

23

or law to support a dismissal with prejudice in this case.

24

Under Section 1915 a complaint should not be dismissed for failure to state a claim

25

unless it appears beyond doubt that the plaintiff could prove no set of facts in support of his/her

26

claim which would entitle him/her to relief. Montana v Commissioner Court, C.A. 5(Tex) 1981,

27
28

14

1

659 F2d 19. Here plaintiff has substantial facts and available evidence in support of each cause

2

of action to prove each fact stated in the second amended complaint that would entitle her to

3

relief. There is no basis in fact or law to support a dismissal with prejudice in this case.

4

An in forma pauperis complaint can only be dismissed where there is indisputable

5

meritless legal theory or on clear baseless factual contentions. McClendon v Turner, W.D. Pa.

6

1991, 765 F.Supp 251. Instant case presents solid cognizable legal theory and facts in support.

7

There is no basis for dismissal with or without prejudice. There is no basis in fact or law to

8

support a dismissal with prejudice in this case.

9

Nietzke, 490 U.S. 319 advises that a section 1915 dismissal is only proper if the legal

10

theory or the factual contentions lack an arguable basis indicating that the purpose of the in forma

11

pauperis statute is to ensure equality of consideration for all litigants. Plaintiff in instant case has

12

not been provided with equal consideration for all litigants; having been treated differently by

13

reason of her limitations of disability and “stigma.” There is no basis in fact or law to support a

14

dismissal with prejudice in this case.

15
16
17

The general provisions of law under Section 1915 were not afforded to plaintiff.
Plaintiffs motion under 59e/60b, was NOT addressed properly as the following was argued:
“Although 28 U.S.C. section 1915 provides for dismissal of an action that is “frivolous,”

18

a district court may deem an in forma pauperis complaint “frivolous” only if it lacks an

19

arguable basis in either law or in fact: in other words, dismissal is only appropriate for a claim

20

based on an indisputable merit-less legal theory and the frivolousness determination cannot serve

21

as a fact finding process for the resolution of disputed facts.” Fogle v Pierson, CA10 (Colo.)

22

2006, 435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011, 659 F3d 1294. Accordingly,

23

where as in instant case, the Magistrate Judge made no determination on the facts/merits,

24

adopting the recommendation of dismissal with prejudice is error.

25
26

A dismissal with prejudice deprives plaintiff of her constitutional right to seek redress
from the court, which appears to be a biased Magistrate Judges’ intention, not based on fact or

27
28

15

1

law; but improper preconceived opinion, based on extrajudicial sources and/or hostile bias and

2

stigma against persons in plaintiffs protected class; and thus, a constitutional violation.

3

Were there anything the Court believed was in some way improper, then notice of intent

4

to strike some specific part is available and/or to amend. However, nothing has been specified

5

that would give notice of any defect subject to being stricken.

6

Attorney practice manuals, such as California Forms of Pleading and Practice and its

7

equivalent Federal pleading forms, regularly repeat essential element language of causes with the

8

different facts inserted. This does NOT make the claims/complaints “frivolous.” It only helps

9

practitioners evaluate the facts to insert them appropriately to meet the court’s pleading

10

requirements and jury instructions. On information and belief, plaintiffs causes meet both the

11

general form pleading requirements and have the facts necessary to prevail perjury instructions.

12

Court’s are in good faith, generally believed to protect citizens from harm, not give the

13

“green light” to further biased retaliatory abuse and prejudicial harm through “dismissal” of

14

citizen pleas for help; in order to allow the offenders to proceed with the intended abuse and

15

destruction intended toward one who had the courage to “stand up” to the discrimination, false

16

and defamatory representations/media comment, infliction of physical harm and emotional

17

distress, saying “no more!” PLEASE!

18
19

Error re Application of “Frivolous” to Dismiss:

20

As stated above, although 28 U.S.C. section 1915 provides for dismissal of an action that

21

is “frivolous,” a district court may deem an in forma pauperis complaint “frivolous” only if it

22

lacks an arguable basis in either law or in fact: in other words, dismissal is only appropriate

23

for a claim based on an indisputable merit-less legal theory and the frivolousness determination

24

cannot serve as a fact finding process for the resolution of disputed facts. Fogle v Pierson, CA10

25

(Colo.) 2006, 435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011, 659 F3d 1294.

26

Accordingly, where as in instant case, the Magistrate Judge findings do not present analysis of

27
28

16

1
1

any fact/law per cause, adopting the recommendation of dismissal is error and an apparent abuse

2

of discretion.

3

Cornell Law School presents on line its Wex Legal Dictionary in which it defines

4

“frivolous:” In the legal context, a lawsuit, motion, or appeal that lacks any basis and is intended

5

to harass, delay or embarrass the opposition... Judges are reluctant to find an action frivolous,

6

based on the desire not to discourage people from using the courts to resolve disputes. It is

7

hoped this Court agrees and does not abide “stigma” or discrimination/retaliation implicating

8

persons with disability as “frivolous.” Fairness, impartiality, due process and equal protection

9

should apply to all “persons” irrespective of “stigma” or disability as the Constitution mandates.

10
11
12

Error re Rendition bv Magistrate Judge of Prior Complaint and Amended Complaints,
As stated above, Judicial Notice is hereby requested of each OBJECTION raised to the

13

false and misleading representations of issues regarding Plaintiffs prior complaints therein. The

14

Magistrate Judge appears not to have read the Objections and ignored the medical good cause

15

NOT to make the findings alleged. No ruling on request for judicial notice issues.

16

17

Error/Abuse of Discretion Not to Appoint Counsel or Mention Good Cause Medical

18

Limitations: e.g. exceptional circumstances.

19

Sua Sponte Appointment of Counsel for good cause. Plaintiff has requested

20

appointment of counsel in this action with good cause appearing; yet, no such issued. Sua sponte

21

appointment is available under the circumstances in this case and plaintiffs limitations.

22

The Magistrate Judge appears to have essentially ignored the analysis for appointment of
i

23

counsel sua sponte and/or upon renewal of prior requests. If an attorney has leave to file a third

24

amended complaint, it is an abuse of discretion to also not give a pro se Plaintiff the right to so

25

amend in the same case! In fact, it is unusual that leave to amend complaint is not granted.

26

THERE IS NOT EVEN THE MENTION OF THE MEDICAL VERIFICATION IN SUPPORT

27
28

17

1

OF LEAVE TO AMEND OR APPOINT COUNSEL, OR EVEN TO AVOID A DISMISSAL

2

FOR MEDICAL CAUSE IN CONTRAVENTION OF THE ALLEGATIONS MADE FOR

3

DISMISSAL! The medical circumstances in this case are exceptional circumstances for

4

appointment of counsel, not for the frustration of the Court; so a dismissal must follow, where no

5

such is even mentioned as having been filed. WHERE IT APPEARS THAT THE MEDICAL

6

EVIDENCE FILED UNDER SEAL WAS NOT CONSIDERED BY THE MAGISTRATE

7

JUDGE, ADOPTING THE FINDINGS IS FUNDAMENTALLY WRONG, ERROR AND A

8

POSSIBLE INADVERTENT ABUSE OF DISCRETION.

9

Where there is no analysis of the case on the merits of each cause, there is no recognition

10

of good cause not to dismiss by medical impossibility. Any one of the medical conditions or the

11

nexus between permanent progressive disability limitations and difficulties and ability to perform

12

timely within the requirements of the Court: should receive accommodation. NOT dismissal. If

13

this is confusion, then that too is evidence of the limitations of disability; for which, no Plaintiff

14

should be punished by denial of access to the court to redress serious grievances as set forth in

15

this action. No defendant should “get away with” their misconduct and violation of law because

16

of Plaintiff s medical detriment. Appointment of counsel to resolve any discomfort of the Court

17

is appropriate and application is renewed on request for permission and appeal here.”

18

An issue is the question of whether appointment of counsel should have and should

19

issue in this action and NOT USED AS A DENIAL TO EFFECTUATE A DISMISSAL

20

WITH PREJUDICE!!!

21

Bv reason of limited time to mail this appeal for receipt on or before September 18,

22

2020. plaintiff must incorporate bv reference here the issues raised in her motion under

23

59e/60b. Further, the issue of length and clarity was addressed in Plaintiffs objections to

24

the magistrate judge’s findings and recommendations (ECF 801 at pages 23-28 showing the

25

contentions are wrong and themselves, uncertain, vague, ambiguous sans citation to the

26

SAC and which show appearance of bias against persons with disability, who require

27
28

18

.^

f
1

additional time to accommodate medical limitations: time granted, that should not be held

2

against the requesting party.

3

Plaintiff has stated a claim sufficient to warrant consideration on appeal for

4

reversal of the dismissal with prejudice, grant of leave to amend and appointment of

5

counsel.

6
7

This case presents the Ninth Circuit with an opportunity to tell its lower courts that

8

persons deemed “vexatious litigants” and persons with disabilities, are still entitled to due

9

process, constitutional protections and the rights and benefits provided under the laws of the

10
11

United States and its State courts.
It is the right to proceed in forma pauperis on a proper showing pursuant to 28 U.S.C.

12

section 1915, that this court is urged to protect against pre-determined opinion bias of “frivolous”

13

attributed to pro se complaints filed by persons with disability and from the inherent “stigma”

14

attributed to such parties as being “vexatious,” precipitating denial of due process and

15

unwarranted dismissals with prejudice. It appears that instant action met the wrongful guillotine

16

of bias and hostile opinion pertaining to plaintiff, rather than any issue of fact or law.

17

18

THIS COURTS NEEDS TO ENSURE THAT EFFECTS OF ILLNESS,

19

LIMITATIONS OF DISABILITY AND EXTENSIONS OF TIME TO ACCOMMODATE

20

SAME, DO NOT BECOME THE MEASURE OF DENYING ACCESS TO THE COURT

21

AND DUE PROCESS IN THIS COUNTRY; as occurred for plaintiff in this action.

22

Plaintiffs physicians have stated that the inability to meet court time and other procedural

23

expectations is not willful: but a problem related to her medical condition and that counsel

24

should be appointed (See Medical Statements under Seal; in particular, Dr. Apperson

25

8/23/18). The facts showing considerable merit set forth in this case do not warrant denial

26

of leave to amend, a “dismissal with prejudice,’’anJjnpUed determination of “frivolous” to

27

28

19

r
f'*
1

prejudice Plaintiff hereafter generally, by res judicata effect and specifically in any future

2

in forma pauperis filing. There is no direct ruling that the SAC is frivolous. Extensions of

3

time that are granted for good cause, should not be construed against the requesting party

4

for dismissal. The failure to appoint counsel, is also NOT a reason to dismiss an action

5

with prejudice. For all the harm plaintiffhas suffered trying to “stand up for justice” in

6

exercise of civil rights under the law, a denial of review would be a painful manifest injustice

7

where the statute of limitations has run, where a dismissal with prejudice issued; which

8

essentially says: the facts showing abuse are warranted and issues raised cannot be re-litigated;

9

thereby, denying constitutional/statutory protections not only for plaintiff; but all similarly

10
11

situated plaintiffs with “stigma” and/or disability.
Assistance by appointment of counsel for both the process of permission here and appeal

12

is respectfully requested. The application with medical necessity statement attached will be

13

submitted separately to the Court of Appeal.

14

Your kind consideration is appreciated.

15

Plaintiff respectfully submits: The issues in this appeal are substantial and warrant

16

further review and appointment of counsel.

17

Dated: September 16, 2020

18
PATRICIA A. MCCOLM
Plaintiff and Appellant, pro se

19
20
21
22
23
24
25
26
27
28

20

j

